<html>
<title> - FIGHTING METH IN AMERICA'S HEARTLAND: ASSESSING THE IMPACT ON LOCAL LAW ENFORCEMENT AND CHILD WELFARE AGENCIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
FIGHTING METH IN AMERICA'S HEARTLAND: ASSESSING THE IMPACT ON LOCAL LAW 
                 ENFORCEMENT AND CHILD WELFARE AGENCIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2005

                               __________

                           Serial No. 109-101

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-946                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2005....................................     1
Statement of:
    Burns, Scott, Deputy Director, State and Local Affairs, 
      Office of National Drug Control Policy; Joseph Rannazzisi, 
      Deputy Chief, Office of Enforcement of DEA; and Laura 
      Birkmeyer, Assistant U.S. Attorney, San Diego, and 
      chairperson, National Alliance for Endangered Children.....    10
        Birkmeyer, Laura.........................................    25
        Burns, Scott.............................................    10
        Rannazzisi, Joseph.......................................    18
    Young, Nancy K., Ph.D., Director, National Center on 
      Substance Abuse and Child Welfare, and Director, Children 
      and Family Futures; Valerie Brown, National Association of 
      Counties; Freida S. Baker, deputy director, Family and 
      Children's Services, Alabama Department of Human Resources; 
      Phil Byers, chief deputy, Rutherford County, NC, Sheriff's 
      Office; Sylvia Deporto, deputy director, Riverside County, 
      CA, Children's Services; Betsy Dunn, investigator and peer 
      supervisor, Tennessee Department of Children's Services, 
      Child Protective Services Division; Don Owens, chief, 
      Titusville, PA, Police Department; and Sheriff Mark Shook, 
      Watauga County, NC, Sheriff's Department...................    68
        Baker, Freida S..........................................   106
        Brown, Valerie...........................................    97
        Byers, Phil..............................................   114
        Deporto, Sylvia..........................................   120
        Dunn, Betsy..............................................   123
        Owens, Don...............................................   130
        Shook, Sheriff Mark......................................   147
        Young, Nancy K...........................................    68
Letters, statements, etc., submitted for the record by:
    Baker, Freida S., deputy director, Family and Children's 
      Services, Alabama Department of Human Resources, prepared 
      statement of...............................................   108
    Birkmeyer, Laura, Assistant U.S. Attorney, San Diego, and 
      chairperson, National Alliance for Endangered Children, 
      prepared statement of......................................    27
    Brown, Valerie, National Association of Counties, prepared 
      statement of...............................................    99
    Burns, Scott, Deputy Director, State and Local Affairs, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................    13
    Byers, Phil, chief deputy, Rutherford County, NC, Sheriff's 
      Office, prepared statement of..............................   117
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland:
        Article dated July 8, 2005...............................    35
        Prepared statement of....................................    41
    Deporto, Sylvia, deputy director, Riverside County, CA, 
      Children's Services, prepared statement of.................   122
    Dunn, Betsy, investigator and peer supervisor, Tennessee 
      Department of Children's Services, Child Protective 
      Services Division, prepared statement of...................   125
    Owens, Don, chief, Titusville, PA, Police Department, 
      prepared statement of......................................   133
    Rannazzisi, Joseph, Deputy Chief, Office of Enforcement of 
      DEA, prepared statement of.................................    20
    Shook, Sheriff Mark, Watauga County, NC, Sheriff's 
      Department, prepared statement of..........................   150
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Photographs..............................................     2
        Prepared statement of....................................     6
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    49
    Young, Nancy K., Ph.D., Director, National Center on 
      Substance Abuse and Child Welfare, and Director, Children 
      and Family Futures, prepared statement of..................    71


FIGHTING METH IN AMERICA'S HEARTLAND: ASSESSING THE IMPACT ON LOCAL LAW 
                 ENFORCEMENT AND CHILD WELFARE AGENCIES

                              ----------                              


                         TUESDAY, JULY 26, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, McHenry, Mica, Gutknecht, 
Foxx, Cummings, and Watson.
    Also present: Representatives Osborne and Cooper.
    Staff present: Marc Wheat, staff director and chief 
counsel; Nicholas Coleman, professional staff member and 
counsel; Pat DeQuattro, congressional fellow; Malia Holst, 
clerk; Tony Haywood, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Souder. The subcommittee will come to order. Thank you 
all and thank you for coming. Today we continue our 
subcommittee's work on the problem of meth trafficking and 
abuse--a problem that is ravaging the entire Nation and putting 
a severe strain on law enforcement agencies and child welfare 
programs, particularly at the State and local levels.
    Displayed on the video screens are a series of photographs 
that capture a young woman's 10-year progression and downward 
spiral resulting from meth addiction. These graphic photos 
demonstrate the real-life impact of meth abuse.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.001
    
    Mr. Souder. This is actually the ninth hearing on meth held 
by the subcommittee since 2001. In places as diverse as 
Indiana, Arkansas, Hawaii and Minnesota, I have heard gripping 
testimony about how this drug has devastated lives and 
families. But I have also learned about the many positive ways 
that communities have fought back, targeting the meth cooks and 
dealers, trying to get addicts into treatment, and working to 
educate young people about the risks of meth abuse.
    Meth is one of the most powerful and dangerous drugs 
available, and one of the easiest to make. It can be ``cooked'' 
using common household or agricultural chemicals and simple 
cold medicines, following recipes easily available on the 
Internet. The drug is highly addictive and has multiple side 
effects, including psychotic behavior, physical deterioration 
and brain damage. Death by overdose is a significant risk.
    Most meth comes from the so-called ``super labs'' in 
California and northern Mexico, and Congress currently is 
exploring ways to address that growing problem. However, it is 
frequently the smaller, clandestine or ``clan'' labs that 
generate so much damage and misery for local communities. The 
amount of meth that is created at these smaller labs is 
relatively small, yet the impact the labs have on the community 
is staggering, due to the environmental damage and health risks 
that they create.
    The National Association of Counties [NACo] recently 
published two surveys which detail the impact that meth is 
having on law enforcement agencies and child welfare services. 
The surveys, entitled, ``The Criminal Effect of Meth on 
Communities,'' and ``The Impact of Meth on Children: Out of 
Home Placement,'' surveyed hundreds of counties nationwide on 
the effects of meth. The NACo law enforcement agency survey 
reported that nearly 60 percent of responding counties stated 
that meth was their largest drug problem.
    The surveys provide further evidence of how the meth 
epidemic is quickly spreading across the Nation, from rural to 
suburban and urban areas. In the NACo survey directed toward 
law enforcement agencies, the information on meth-related 
arrests and meth cases overall was staggering. Of the 500 
responding counties in the past year, 67 percent reported 
increases in meth-related arrests. Counties in the southwest 
reported particularly disturbing results, with 76 reporting 
such increases. Over half of the agencies surveyed stated that 
at least 1 in 5 jail inmates are serving meth-related 
sentences.
    The surveys also demonstrate that children are increasingly 
becoming the primary victims of meth abuse. The surveys found 
that 40 percent of child welfare agencies reported an increase 
in ``out of home placements because of meth in the past year.'' 
This abuse unfortunately includes physical and mental trauma, 
and even sexual abuse; 69 percent of county social service 
agencies have indicated that they have had to provide 
additional, specialized training for their welfare system 
workers and had to develop new and special protocols for 
workers to address the special needs of children affected by 
meth. Community Health and Human Services, as well as child 
welfare services, such foster care, are being overwhelmed as a 
result of meth.
    Officials at every level of government, Federal, State and 
local, must take effective, coordinated action to address the 
meth epidemic. U.S. Attorney General Alberto Gonzales recently 
declared that, ``in terms of damage to children and to our 
society, meth is now the most dangerous drug in America.'' As 
Members of Congress, we need to take a careful look to see what 
additional legislation and resources are needed.
    First, what forms of direct assistance, particularly in the 
expensive realm of environmental cleanup, should the Federal 
Government provide to local agencies when dealing with meth lab 
busts and their aftermath? Second, what kind of specialized 
training can and should the Federal Government provide to State 
and local agencies, both in law enforcement and the child 
welfare service areas?
    And third, what are the ``best practices'' for dealing with 
children found at meth labs sites?
    In Indiana, just in the last few days, as most of the 
Members of Congress had been saying, there have been multiple 
major arrests, events in western Indiana, eastern Illinois. One 
of these guys got into an anhydrous ammonia tank--a 1,000-
gallon leak that they had to evacuate many blocks of town and 
then eventually the whole area, a problem that we faced in a 
number of rural areas in my district and across Indiana.
    We had a recreational vehicle plant that had a rumor that 
they had the problem so they did a quick drug test and found a 
third of the people at the plant where the average income is 
over $72,000, hardly a low-income area, that one-third were 
high at work that day, most on meth but also including 
marijuana and cocaine.
    A big story over the weekend was about one of these workers 
who, he and his wife, both were very professional, had been 
destroyed as they started with marijuana, moved to meth at this 
plant and had their lives wrecked. And this story is becoming 
far too frequent in community after community, and is starting 
to hit our major metro areas.
    As we heard in St. Paul, MN, two big cities where the 
data--by next year, the national agencies will be reporting the 
data coming in from these counties and all of a sudden, this 
meth will go from 8 percent to much higher in these cities and 
the data is behind.
    It is one of our biggest collection problems that we have 
when we look at this committee and as we do our oversight 
hearings. Our data is often 2003 drug data and the issue is 
moving so fast in the category of meth, it is flat-out wrong 
right now.
    At today's hearing, we will hear from the Federal, State 
and local agencies that fight on the ``front lines'' against 
the meth epidemic. We welcome Mr. Scott Burns, Deputy Director 
for State and Local Affairs from the Office of National Drug 
Control Policy; Mr. Joseph Rannazzisi, Deputy Chief of the 
Office of Enforcement at the Drug Enforcement Administration; 
and Ms. Laura Birkmeyer, Assistant U.S. Attorney in San Diego, 
CA and chairperson of the National Alliance for Drug Endangered 
Children.
    On the second panel we will hear from Dr. Nancy Young, 
Director of the National Center on Substance Abuse and Child 
Welfare, which is funded by the Federal Substance Abuse and 
Mental Health Services Administration [SAMHSA], and Director of 
Children and Family Futures; Ms. Valerie Brown of the National 
Association of Counties; Ms. Freida Baker, deputy director of 
Family and Children's Services at the Alabama Department of 
Human Resources; Chief Deputy Phil Byers from the Rutherford 
County, NC Sheriff's Office; Ms. Sylvia Deporto, deputy 
director of Riverside County Children's Services in California; 
Ms. Betsy Dunn, investigator and peer supervisor from the 
Tennessee Department of Children's Services, Child Protective 
Services Division; Chief Don Owens of the Titusville, PA, 
Police Department; and Sheriff Mark Shook from the Watauga 
County, NC Sheriff's Department.
    We thank everyone for taking the time to join us this 
afternoon, and look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.002
    
    [GRAPHIC] [TIFF OMITTED] T4946.003
    
    Mr. Souder. I yield next to Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman, and thank you for 
bringing attention to this important issue. Today we are 
discussing fighting methamphetamine and trying to bring 
attention to this matter. I think it is named appropriately 
``Fighting Meth in America's Heartland,'' because that is 
mainly where it is occurring in small and rural communities 
across this Nation, and so it's becoming an epidemic in places 
like my district in western North Carolina, and we are 
struggling to battle this issue.
    I certainly appreciate Chief Deputy Sheriff Philip Byers 
and his wife, Sheila, for being here today. They will be part 
of our second panel. I look forward to introducing them at that 
time.
    We have two expert panels today to talk about the 
staggering effects that meths have on our Nation. I think it's 
most important that we hear from our sheriffs' offices 
especially, and our State-run child service programs, because 
they have the unique challenge of dealing with this in small 
communities across America where this epidemic is occurring.
    In 2004, over 3,357 children nationally were found to be 
connected with seized meth labs. This is an issue of severe 
concern for this Congress and for this committee. The problem 
is growing, but it is not a faceless problem, as our witnesses 
will testify today. The debilitating mental and physical 
effects of this drug, the production process, and the way it 
touches everyone, especially in rural communities, are not 
being overlooked.
    In North Carolina alone, Medicaid costs, in part, have 
increased due to the rise of children that have been taken out 
of homes with meth labs. Beyond that, the medical expenses that 
society will bear, that our governments will fund, and we as 
taxpayers will fund, because of this meth addiction that our 
folks are dealing with. I think it's important that we promote 
awareness about this spreading problem that we protect our 
children and provide resources to those on the front lines so 
that we can take on this key area of concern.
    I would like to welcome all of our witnesses today. Thank 
you for taking time to be here before Congress. It will be a 
unique process for you. Some of you have been here before, but 
for those that have not, it should be definitely a learning 
experience for both of us.
    Thanks so much.
    Mr. Souder. Ms. Foxx, do you have an opening statement?
    Ms. Foxx. Thank you, Mr. Chairman. I would like to thank 
both the chairman and the ranking member of the subcommittee 
for holding this hearing and for their continued effort to 
fight the dire methamphetamines problem in this country. I want 
to thank the members of both panels for the work you do in your 
communities in collaborating with Congress today in this 
constructive dialog on how to best address this problem 
nationwide.
    I am honored to have one of my constituents and community 
leaders here today as a member of the second panel. Sheriff 
Mark Shook of Watauga County, my home county, has truly become 
an expert and leader in this area through his outstanding work 
over the past several years. As a former patrol officer and 
detective, Sheriff Shook has over 20 years experience from the 
law enforcement side before being elected Watauga County 
sheriff 3 years ago.
    At that point, he wrapped his arms around the meth problem 
and tackled it at full force. He understands the curse that 
meth has been on our community and has done a terrific job in 
attacking the problem from all angles. He has been extremely 
effective in educating our community about meth, and my first 
knowledge about this problem came from a workshop that he held 
in our community, attended by over 100 people. I have known 
Mark his entire life, and we share a passion for the beauty of 
the mountains of northwestern North Carolina.
    Methamphetamine production and abuse have been a scourge on 
the beautiful mountain area that Mark and I care deeply about. 
Sheriff Shook and I have teamed up to minimize and eliminate 
the problem. With his leadership and tireless efforts, we have 
made great strides.
    I am honored and proud to have Sheriff Shook here today to 
share his success with Congress, and I hope his story can be a 
benefit to the subcommittee and other communities that are 
afflicted with meth abuse.
    The challenge meth abuse poses is strong, serious and 
immediate, and so, too, must be our response. The outstanding 
job Sheriff Shook has done at the local level must be 
duplicated at the Federal level if we are to eradicate meth 
from our communities.
    I look forward to receiving the testimony of our panelists 
and hope we can use the feedback to create a firm legislative 
response to the meth problem.
    Thank you again, Mr. Chairman.
    Mr. Souder. Mr. Gutknecht.
    Mr. Gutknecht. Just very briefly, Mr. Chairman. Again, 
thanks for this hearing. More importantly, thank you for taking 
the subcommittee around the country to hear from folks from all 
areas of our Nation. This is a huge and a growing problem. We 
learned, for example, in the Twin Cities, that there is a 
growing sense among law enforcement that no longer is this a 
drug which is just being produced in rural communities, that 
more and more of it is actually coming in from Mexico, across 
our borders, which raises even more interesting questions that 
we at the Federal level need to address. So, again, thank you 
for this hearing and thank you for your dogged pursuit of this 
particular issue.
    I yield back.
    Mr. Souder. Thank you, I would now like to recognize a non-
member of this subcommittee, Mr. Cooper, who wants to introduce 
a Tennessee witness. Tennessee has been one of the hardest-hit 
States. Your delegation has been great, including the gentleman 
with us today in helping us to fight meth. I recognize you for 
the purpose of your introduction.
    Mr. Cooper. Thank you, Mr. Chairman. I really appreciate 
your leadership on this issue because I know of no greater 
scourge our rural area faces than meth. Tennessee has been hard 
hit. We are about second worst State in America, and that is 
not a distinction that any of us wants to hear.
    I am particularly proud that Betsy Dunn will be joining us 
on the second panel, because she is the model of what a Child 
Protective Services worker should be. She has been at it for 16 
years and we know it is a high turnover in her profession. She 
is serving in one of the toughest areas of the country. Our 
hometown of Cookesville is beautiful, a university town and 
wonderful, but all around Cookesville, our areas have been very 
hard hit by meth.
    Many of us have read horror stories by the famous author 
Stephen King, but I think Betsy can tell us scarier stories 
than anything that Stephen King has written about, because her 
stories are real and they are affecting our kids every day in 
large numbers. Our State went ahead and the State legislature 
took pseudoephedrine off the pharmacy shelves. I hope that our 
adjoining States and all the States in the country will 
consider steps to do that, to do anything they possibly can, 
anything to alleviate the scourge.
    But we are very proud of Betsy and her pioneering work over 
the years. You make us proud, Betsy.
    Thank you.
    Mr. Souder. Thank you. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions to the hearing record and that any answers to 
written questions by the witnesses also be included in the 
hearing record. Without objection, it is so ordered.
    I ask unanimous consent that all exhibits, documents and 
all other materials referred to by Members may be included in 
the hearing record and that all Members may be permitted to 
revise and extend their remarks. Without objection, it is so 
ordered.
    Our first panel is composed of Mr. Scott Burns, Deputy 
Director for State and Local Affairs, Office of National Drug 
Control Policy; Mr. Joseph Rannazzisi, Deputy Chief, Office of 
Enforcement of DEA; Ms. Laura Birkmeyer, U.S. Assistant 
Attorney, San Diego and chairperson for the National Alliance 
for Endangered Children.
    Would each of you stand, as an oversight committee it's our 
standard practice to ask our witnesses to testify under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Mr. Burns, thank you for joining us. You are recognized for 
5 minutes.

  STATEMENTS OF SCOTT BURNS, DEPUTY DIRECTOR, STATE AND LOCAL 
    AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY; JOSEPH 
  RANNAZZISI, DEPUTY CHIEF, OFFICE OF ENFORCEMENT OF DEA; AND 
   LAURA BIRKMEYER, ASSISTANT U.S. ATTORNEY, SAN DIEGO, AND 
     CHAIRPERSON, NATIONAL ALLIANCE FOR ENDANGERED CHILDREN

                 STATEMENT OF HON. SCOTT BURNS

    Mr. Burns. Thank you, Chairman Souder, and distinguished 
members of the subcommittee for inviting me to discuss our 
national efforts against meth. I am particularly honored, Mr. 
Chairman, to be here with Mr. Rannazzisi and Ms. Birkmeyer, 
both renowned experts, not only in this country, but worldwide. 
Mr. Rannazzisi, as you know, is not only a respected DEA agent, 
but a lawyer and a pharmacist.
    Ms. Birkmeyer, a fellow road warrior, we see each other 
crossing the country, is not only an assistant U.S. Attorney 
who has spent years in the courtroom prosecuting 
methamphetamine cases, but she is truly a voice and a champion 
for children in this country on these issues. So I am honored.
    I am also honored to be here with my brothers and sisters 
in law enforcement from rural America. As you know, Mr. 
Chairman, before coming here to work for the President and the 
drug czar, I spent 16 years as a prosecutor in a small town. I 
learned about the destructive aspects and nature of 
methamphetamine firsthand. I worked with police officers who 
were put at risk by having to respond to, enter and sit on meth 
labs. I worked with city councilmen and city commissioners and 
others to try to figure out a way to pay for the overtime while 
we waited for a DEA chemist or work crews to come in. I met 
with innocent neighbors who lived near houses who were turned 
in meth labs. I have learned of children whose parents were 
found to be under the influence of meth and suffered neglect as 
a result.
    As you know, Mr. Chairman, this is a bad drug. The toxic 
waste, 6 or 7 pounds of waste associated with each pound of 
methamphetamine is produced, children poisoned and toxicity 
levels at the lab, burns from explosion, I see Congressman 
Cooper here, I know that we were out in Tennessee at the burn 
unit and the children and those suffering from meth explosions, 
the violence associated with this drug and the costs to 
incarcerate and clean up. It affects and destroys individual 
lives, as we know, of families and communities.
    So the national drug strategy has to be balanced. As you 
know, our priorities are prevention and treatment, and also a 
marked destruction, dismantling drug trafficking organizations. 
We believe the strategy, with your help and your leadership, 
has yielded success through the monitoring the future survey 
and the household survey, those measures that we look to 
determine whether or not we are doing any good--17 percent 
reduction over the last 3 years. Our strategy to reduce drug 
use in America has not, however, been focused on one illicit 
drug at the expense of another, but seeks to reduce all illicit 
drug use in this country. The increase in treatments for meth 
over the past few years, especially in the western and 
midwestern States, illustrates the devastating impact of the 
drug on many adults.
    The good news, however, is that the surveys show that 
methamphetamine use among teens is down 25 percent over the 
last 3 years. Hopefully, the message is reaching them that we 
can buildupon those reductions with respect toward children.
    I will be brief, because I want to take questions, but I 
want to just basically outline some of the efforts in combating 
the meth problem on a Federal level, the Drug Endangered 
Children Program, and Ms. Birkmeyer will talk about that in 
depth.
    The NAMSDL, or National Alliance of Model State Drug Laws, 
Sherry Green and others that are in her office putting on 
training in summits and town halls across the country. The 
HIDTA program, more initiatives in the High Intensity Drug 
Trafficking Areas Program, are focused on methamphetamine than 
any other singular drug. You talked about the NACo survey and 
the perception or determination that methamphetamine was a No. 
1 problem.
    The HIDTAs are charged with determining the threat in their 
area and responding appropriately and more initiatives to 
target methamphetamine than any other single drug. The national 
methamphetamine chemical drug initiative, again one that Ms. 
Birkmeyer oversees in the HIDTA program, that brings together 
the best and the brightest of law enforcement officers across 
this country to talk about trends and ways to make the problem 
smaller.
    The administration has kept level the request for funding 
for cleanup in Federal law enforcement, as Mr. Rannazzisi will 
talk about, has done a phenomenal job, especially of shutting 
down the flow of pseudoephedrine from Canada into the United 
States, over a 90 percent reduction in interdiction. The 
methamphetamine advertisements or PSAs that you, Mr. Chairman, 
and others were so helpful in bringing to fruition, will be 
coming out.
    I chair the Synthetic Action Plan that brought together my 
office, as well as the Department of Justice, and just about 
everybody in the intergovernmental world in Washington to sit 
down and try to come up with recommendations to bring to the 
Congress with respect to how to make this problem smaller.
    I personally thank you for your leadership and for your 
courage, to take on these issues, as was mentioned, you are not 
only here in Washington but out in the field. I have been to 
Indiana as you know, twice to try to assist and just about 
every other State in the country, talking about this issue.
    I ask that my full statement be made part of the official 
record and I look forward to your questions, thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.004
    
    [GRAPHIC] [TIFF OMITTED] T4946.005
    
    [GRAPHIC] [TIFF OMITTED] T4946.006
    
    [GRAPHIC] [TIFF OMITTED] T4946.007
    
    [GRAPHIC] [TIFF OMITTED] T4946.008
    
    Mr. Souder. Mr. Rannazzisi.

                  STATEMENT OF JOHN RANNAZZISI

    Mr. Rannazzisi. Thank you, sir. Chairman Souder and 
distinguished members of the House Government Reform Committee, 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources, on behalf of the Drug Enforcement Administration's 
Administrator, Karen P. Tandy, I appreciate your invitation to 
testify here today regarding DEA's effort to combat 
methamphetamine trafficking and abuse across the United States.
    I just want to say that I am both honored and humbled to 
sit here at the table with Ms. Birkmeyer and Mr. Burns. They 
have given us outstanding--nothing short of outstanding support 
in our fight against drug abuse, and they should be recognized 
for that.
    Today, few communities in the United States have not felt 
the crushing impact of methamphetamine, which goes far beyond 
the actual trafficking and abuse of this drug. The DEA is well 
aware that combating this drug requires a multifaceted approach 
to law enforcement.
    In addition to our domestic and international enforcement 
efforts, the DEA is battling this drug through the efforts of 
our office of training, hazardous waste disposal program and 
victimless witness assistance program. Training is vital to 
ensure that officers conducting laboratory investigations are 
provided with safe and efficient procedures and equipment which 
allows them to work in these dangerous environments.
    Since 1998, with funding originally received to the 
community-oriented policing program [COPS], and then through 
direct annual appropriations, the DEA offers a strong training 
program for our State and local counterparts. Each of our 
training courses exceeds OSHA-mandated minimum safety 
requirements and is provided at no cost to qualified local law 
enforcement officers.
    Since 1998, we have trained over 8,600 State and local law 
enforcement personnel plus an additional 1,900 DEA employees to 
conduct clandestine laboratory investigations, dismantle seized 
labs and to protect the public from methamphetamine toxic 
waste. As part of this training, approximately $19 million in 
meth lab personal protective equipment has been provided to 
State and local law enforcement officers. The DEA has also 
conducted training for our foreign counterparts and has also 
provided awareness training for our U.S. military in 
Afghanistan.
    Today our hazardous waste program, with the assistance of 
COPS, supports and funds the cleanup of a majority of the 
laboratories seized in the United States. This program promotes 
the safety of law enforcement personnel and the public by using 
qualified companies with specialized training and equipment to 
remove hazardous wastes seized at clandestine drug labs. The 
average cost of the cleanup during the initial contract was 
approximately $17,000 and currently the average cost is 
approximately $2,000.
    To further reduce the cost of clandestine lab cleanups, in 
fiscal year 2004 we join the Kentucky State Police to join a 
pilot clandestine lab container program in Kentucky. This 
program has streamlined the laboratory cleanup process and has 
resulted in the reduction of operational costs, the length of 
time officers must remain on the lab site and overtime costs to 
law enforcement agencies. The current average cleanup lab time 
cost in this project is approximately $350 per site.
    More than any other controlled substance, methamphetamine 
trafficking endangers children to the exposure of drug abuse, 
neglect, physical and sexual abuse, toxic chemicals, hazardous 
waste, fire and explosions.
    A key goal of the DEA victim and witness program is to 
provide assistance to victims of methamphetamine, particularly 
drug-endangered children. Each of our field divisions has a 
victim-witness coordinator to insure that all endangered 
children are identified and that the child's immediate safety 
is addressed at the scene by appropriate child welfare and 
health service providers.
    Assistance has also been provided to vulnerable adults, 
individuals of domestic violence and customers and employees of 
businesses, such as motels and hotels such as where 
methamphetamine has been produced and seized.
    We also provide training on drug-endangered children to 
Federal, State and local law enforcement and to national State 
and local victims organizations. In order to provide the public 
with current information on methamphetamine and drug-endangered 
children, the DEA participates in numerous local, State and 
national conferences and exhibits.
    In conclusion, the DEA is attacking the methamphetamine 
epidemic on all available fronts. In addition to our domestic 
and international enforcement efforts, we provide vital 
laboratory training equipment to law enforcement officers from 
across the country. Our hazardous waste program, with the 
assistance of grants to State and local law enforcement, 
supports and funds the cleanup of a majority of the clandestine 
laboratories seized in the United States.
    Over the years, this program has become more efficient, and 
we have engaged in efforts to further streamline this process 
and reduce the cleanup costs. Through the victim-witness 
assistance program, we are providing assistance to 
methamphetamine victims.
    Chairman Souder, distinguished members of the subcommittee, 
thank you for your recognition of this important issue and the 
opportunity to testify here today. I will be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Rannazzisi follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.009
    
    [GRAPHIC] [TIFF OMITTED] T4946.010
    
    [GRAPHIC] [TIFF OMITTED] T4946.011
    
    [GRAPHIC] [TIFF OMITTED] T4946.012
    
    [GRAPHIC] [TIFF OMITTED] T4946.013
    
    Mr. Souder. Thank you, Ms. Birkmeyer.

                STATEMENT OF LAURA J. BIRKMEYER

    Ms. Birkmeyer. Chairman Souder and distinguished members of 
the subcommittee. It is a true honor to appear before you today 
to discuss the plight of America's drug-endangered children. I 
am the Executive Assistant U.S. Attorney in the southern 
district of California, and I have prosecuted methamphetamine 
and precursor chemical cases for most of my 18 years there.
    But today, I address you as director of the National 
Alliance for Drug Endangered Children. The alliance encourages 
communities to intervene on behalf of children and to establish 
Drug Endangered Children [DEC], multidisciplinary programs to 
rescue, defend and shelter and support these children.
    Methamphetamine is running ferociously throughout the 
country, and in its wake, often unseen and overlooked are 
thousands of children. Drug endangered children are at enormous 
risk in homes where meth is manufactured or where parents live 
a methamphetamine life-style.
    If this were a different venue I would present to you the 
hundreds of pictures and video clips we have collected of 
deplorable living conditions evidencing the homes of these 
children. Words don't adequately describe the filth, chaos and 
danger there. Their homes--where their sheets, if there are 
any, are never washed, where children's bedrooms are used to 
store drugs, where toxic waste from methamphetamine 
manufacturing is routinely poured down kitchen sinks and 
bathtubs in which children are later bathed. There are homes 
where the plumbing doesn't work, food in the refrigerator is 
moldy and rotten, and where if there is any food, many times it 
is contaminated because often times methamphetamine and 
methamphetamine chemicals are stored there.
    There are also the homes where doorbells ring all day and 
night during binge cycles and where a constant stream of 
strangers, ex-felons, registered sex offenders and poly drug 
users come and go to use meth. The air is filled with second 
hand methamphetamine smoke that is precipitating out on 
surfaces throughout the house. The children are 
``parentified,'' they are left to look out for themselves and 
their younger siblings while their parents binge, sleep and 
cope with their drug habit.
    I could also spread before you murdered, burned, bruised 
and maimed children who are victimized by these same adults. 
This is just the tip of the iceberg. All of these children, 
even those that emerge without serious bodily injury, suffer 
enormous psychological harm, degradation and lack of nurturing. 
Methamphetamine affects the body, and particularly the brain in 
a way that lingers long after ingestion occurs.
    NIDA Director Nora Volkow and others have just begun to 
show that methamphetamine alters brain chemistry for months and 
years after the drug use ceases. The affects on the brain alter 
parental behavior and impair the ability to parent. Often 
parents in drug treatment do not recover in sufficient time and 
prove competent enough to be reunified with their children.
    Just yesterday, the alliance brought together a working 
group of drug treatment experts to identify the most effective 
methamphetamine programs and to evaluate and recommend programs 
which address the total needs of family and their dependent 
children.
    We are also in the process of designing an awareness 
program used to notify drug treatment providers who are 
sometimes unaware of the dangerous consequences for dependent 
children when their parents relapse. I know you are familiar 
with the El Paso Intelligence Center statistics.
    You also probably know that we cannot count the total 
number of drug-endangered children in this Nation. We know that 
the El Paso numbers are not complete. Some counties are 
starting to count their drug endangered children on their own 
and in my home county, DEC teams have taken more than 400 
children into protective custody in the past 12 months. 
Significantly more than 95 percent of those come not from meth 
lab homes but from homes where adults use methamphetamine or 
traffic in methamphetamine.
    Drug endangered children teams comprised of law 
enforcement, child welfare workers, medical professionals, 
psychologists, prosecutors, and where possible, working closely 
with drug courts and court-appointed special advocates, are an 
effective response.
    Drug endangered children, once they are found by law 
enforcement and protected by child custody are evaluated for 
placement in safer environments as non-offending parents, 
family members or in the foster care system. And a prosecutor 
will later determine if it's appropriate to file child 
endangerment charges or to permit reunification with parents.
    As those children enter foster care they stress a system 
that searches for a way to coordinate a provision of services. 
Many communities are reporting that we need better preparation 
of foster parents for the behavior and medical issues attendant 
to children exposed to methamphetamine environments. State and 
counties have different resources and structures, and there is 
no one-size-fits-all for implementing a model of DEC. In order 
to implement that process, last year we started the National 
Drug Endangered Children training program administered by my 
office, which provides cost-free break to requesting States.
    We send out experienced training teams consisting of law 
enforcement officers, prosecutors, doctors and nurses, the 
people that actually do this day in and out. In the last 18 
months, we have trained more than 5,500 professionals for 
multiple disciplines in 20 different States. I wish to finish 
with a note of hope. The psychologists who work with the 
alliance say that these children are resilient. If given the 
opportunity and a caring environment they will strive. We have, 
as one of our goals, the hope that they will not be tagged 
``crank babies'' as if they are irreversibly damaged. We 
believe, and it is our fervent shared belief, that by rescuing 
these children, we can break the cycle of drug abuse.
    Thank you. I would be happy to answer any questions you may 
have.
    [The prepared statement of Ms. Birkmeyer follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.014
    
    [GRAPHIC] [TIFF OMITTED] T4946.015
    
    [GRAPHIC] [TIFF OMITTED] T4946.016
    
    [GRAPHIC] [TIFF OMITTED] T4946.017
    
    [GRAPHIC] [TIFF OMITTED] T4946.018
    
    [GRAPHIC] [TIFF OMITTED] T4946.019
    
    [GRAPHIC] [TIFF OMITTED] T4946.020
    
    Mr. Souder. Thank you, I would recognize Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman, and I thank the 
witnesses for their testimony. Mr. Chairman I will give my 
statement at this time. Methamphetamine or meth is hardly a new 
drug, but in recent years, it has quickly become one of the 
major drug threats facing this country. According to a recent 
report by the National Association of Counties, entitled the 
Meth Epidemic in America, meth is now the No. 1 illegal drug 
threat facing most of the 500 counties that participated in a 
survey of local law enforcement agencies. Moreover, the drug's 
destructive impact on families has contributed to a significant 
increase in child welfare rolls as we have just heard in 
hundreds of counties across the Nation, according to the same 
record. The New York Times described meth's devastating impact 
on families in a compelling article published on July 8, 2005, 
entitled, ``Drug Scourge Creates its Own Form of Orphan.''
    I would ask unanimous consent, Mr. Chairman, that article 
be submitted as a part of this hearing's record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.021
    
    [GRAPHIC] [TIFF OMITTED] T4946.022
    
    [GRAPHIC] [TIFF OMITTED] T4946.023
    
    [GRAPHIC] [TIFF OMITTED] T4946.024
    
    Mr. Cummings. A powerful stimulant that affects the central 
nervous system, meth is derived from a chemical compound 
contained in over-the-counter nasal decongestants and bronchial 
inhalers as well as in certain weight loss treatments. Meth can 
be smoked, snorted, orally ingested or injected and is known by 
a variety of street names depending on the form in which it is 
used. Meth frequently is produced in a powder form, resembling 
granulated crystals and also in a rock form known as ice, which 
is referred by those who smoke the drug.
    Meth causes an increase rush and a high that can last up to 
12 hours. The side effects of meth use are dangerous and 
sometimes fatal. They include convulsions, high body 
temperatures, stroke, cardiac arrests, arrhythmia, stomach 
cramps and shaking. Meth is highly addictive and abuse of a 
drug can cause violent behavior, anxiety, insomnia in addition 
to psychotic affects such as paranoia, hallucinations, mood 
swings and delusions.
    Persistent users develop a tolerance for the drug that 
requires the user to take increasing amounts to achieve the 
desired affects. Meth can be manufactured using ingredients 
purchased in U.S. retail stores. Most of the production of 
U.S.-consumed methamphetamine is domestic, occurring both in 
large super labs, which produce unprecedented amounts of high 
purity methamphetamine, as well as in small, clandestine labs 
found in homes, apartments, hotel rooms, rented storage space 
and trucks. Many methamphetamine labs produce as little as 10 
pounds a year, but their environmental costs in the cleaning up 
of toxic wastes from these sites can be huge. Because the 
ingredients are not only toxic but extremely volatile in 
combination labs also pose a serious danger to the so-called 
meth cooks who make the drugs, as well as individuals living in 
close proximity to the activity.
    All too often, these individuals are the young children of 
small-scale manufacturers. They are not only at great risk of 
physical harm, from explosions, exposure to toxic chemicals, 
but they are very often the victims of family neglect or abuse, 
because the drug's affects on their parents or other relatives.
    A National Association of Counties report, and ``New York 
Times'' article described, these circumstances have led to a 
large number of children being taken from the custodial control 
of their parents and placed in foster care. Sadly the health 
and behavior affects that result from prenatal exposure to meth 
and from severe family neglect or abuse make meth-addicted 
parents especially challenging for foster parents to care for 
and very, very difficult to place. Absent effective treatment 
for the parents of displaced children, reuniting families, torn 
apart by meth, may be impossible.
    Traditionally, meth has been concentrated in the western 
States, especially California, Arizona and Utah. In recent 
years, the midwest region has experienced tremendous growth in 
both trafficking and production, and that activity is spreading 
into the southeast and northeast regions. Meth abuse has not 
yet become a major problem in the communities of Baltimore City 
and Baltimore-Howard counties that I represent, but the rapid 
spread of meth production, trafficking and abuse in the United 
States, underscores the fact that America's drug problem 
affects all parts of America and that no community, absolutely 
no community, is immune to the introduction of a dangerous new 
drug threat.
    Today, on our first witness panel, we will hear from 
officials who are responsible for shaping, coordinating and 
carrying out the Federal response to the growing meth epidemic, 
including preventing its spread to the East Coast and urban 
districts like the one that I represent.
    We will also hear directly from law enforcement and child 
welfare officials from States and localities that are suffering 
the myriad of problems that affect communities where meth is 
produced and consumed.
    Federal legislative efforts to address the meth epidemic 
have focused on limiting over-the-counter access to products 
containing precursor chemicals as well as providing support for 
law enforcement and the cleanup of toxic sites. There is no 
doubt that these are important objectives that Congress and the 
administration should pursue.
    At the same time, Mr. Chairman, I believe that it would be 
impossible to underestimate the importance of drug treatment in 
addressing this epidemic. Research from the Center for 
Substance Abuse Treatment shows that meth addiction can be 
effectively treated and that the benefits of treating meth 
addiction are similar to the benefits derived from treating 
addiction to other drugs. Use of the drug is sharply reduced. 
Criminal activity and recidivism decline. Employment status and 
housing status improve, and overall health improves--a healthy 
drug-free employed person in a stable housing situation is a 
person who is far more likely to be able to function in civil 
society and be a responsible, loving parent--of insuring that 
people who have become dependent on meth have access to 
effective treatment is therefore essential to stopping this 
epidemic that is sweeping across our great Nation.
    So, Mr. Chairman, I thank you for continuing to shine a 
light on this issue. I thank each of our witnesses for 
appearing with us today.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T4946.025

[GRAPHIC] [TIFF OMITTED] T4946.026

[GRAPHIC] [TIFF OMITTED] T4946.027

[GRAPHIC] [TIFF OMITTED] T4946.028

[GRAPHIC] [TIFF OMITTED] T4946.029

[GRAPHIC] [TIFF OMITTED] T4946.030

    Mr. Souder. Before we move to questions, Mr. Mica, do you 
wish to make an opening statement.
    Mr. Mica. Thank you, Mr. Chairman, thank you for 
recognizing me. I didn't get a chance to make an opening 
statement, but if you would permit me just to make a few 
comments.
    First of all, I thank you for this hearing. I rarely try to 
write and direct the actions of this subcommittee, although I 
had the honor and privilege of being a former Chair of this 
panel. But as you know, I requested that we look at this issue. 
The meth issue is totally out of hand. I have worked on this 
subcommittee with you and other predecessors back at--before 
Denny Hastert.
    We have tackled crack and cocaine issues. I have worked 
with Mr. Cummings in trying to clean up Baltimore and some of 
the challenges we faced in that community and other 
communities. We have been through heroin. We have tracked down 
perpetrators to the Andes, we have put together multibillion 
dollar programs to go after drugs at their sources, illegal 
narcotics at their sources. We have been through the designer 
drug phase.
    Now we are at an interesting juncture where we have done 
some good things in some of those areas. But this problem is in 
everybody's backyard in this Congress and in every community 
across the country. It's almost totally out of hand. It's our 
worst drug nightmare come true, because the ingredients are 
easily accessible in drugstores. The recipes are on the 
Internet.
    If you look at crime tragedy and social problems in this 
country right now, spousal abuse, child abuse--I remember one 
time hearing the story of--it is affecting every aspect of our 
society. All the social levels, whether it's a rich family that 
puts their baby--the mother puts the baby in a microwave and 
tries to fry her, or in some of the poorest backwaters of our 
country, this is a serious problem, out of hand. I honestly 
don't know what the answer is. I think if you get to treatment, 
it is probably too late. They have already destroyed lives and 
families, because, again, of the insidious nature of this drug.
    We have to look at again, education. We may need to haul 
some folks in. I am anxious to hear what they recommend. We 
need to look at our laws. We need to look at enforcement, 
whatever it takes. But this situation is totally out of hand, 
and we have to come up with some solution to bring all the 
resources possible to address this.
    So I thank you for calling this hearing. I am anxious to 
not only hear the testimony, but also hear some of the 
solutions that are suggested by some of the expert witnesses 
you have assembled. So thank you and I yield back.
    Mr. Souder. Ms. Watson, do you have any opening comments?
    Ms. Watson. Thank you so much, Mr. Chairman, for putting 
together this hearing today. Because eliminating drug smuggling 
and distribution throughout the United States is vital in 
keeping our communities safe. The Department of Justice 
contends that in my home State of California, we have over 80 
percent of the Nation's meth labs, and, therefore, we are the 
leading exporter of this deadly drug.
    In 2002 to 2004, 142,749 people were treated for meth 
treatment in my State alone. I am very troubled by the fact 
that I believe that over 12 million Americans, ages 12 and 
older, have tried methamphetamine at least once in their lives. 
These statistics are startling as well as devastating. And our 
youth, being the future of this Nation, and the fight to 
decrease the distribution of this drug, along with all other 
illegal substances, should be at the forefront of all of our 
efforts.
    Throughout this hearing, we will discuss the impact on 
methamphetamines on the child welfare system. We are seeing a 
growing trend where every day more and more children are 
entering the foster care system because of meth, because of its 
manufacturing or because they are selling it. Our children are 
suffering from their parents' addiction to meth. Most of our 
youth who end up being users were introduced to meth by their 
parents or by other family members. The scope of the 
methamphetamine problem is not just the users and distributors 
problem, it is the problem of everyone who touches the life of 
someone who is using this harmful substance.
    Methamphetamine use and distribution have disastrous 
consequences across America's heartland and beyond. So we must 
do everything in our power to expand access to treatment, 
strengthen our prevention services and continue to support 
research that will help us get rid of this problem here in the 
United States. We need to be focused on supplying treatment 
that will not only get the abuser off of drugs, but supply them 
with a job, help them remain out of jail and be a positive 
contributor to society.
    So, Mr. Chairman, I thank you again for putting together 
this hearing, and I would like to thank the witnesses for their 
willingness to come and testify. I hope that we can all work 
together to effectively tackle the abuse of all illicit 
substances that are ruining our streets and killing our 
children every day.
    Thank you.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.031
    
    [GRAPHIC] [TIFF OMITTED] T4946.032
    
    [GRAPHIC] [TIFF OMITTED] T4946.033
    
    Mr. Souder. Thank you. Like Congressman Cooper, Congressman 
Osborne is not a member of this committee, but he has been a 
leader in the fight against meth. Would you like to make any 
comments.
    Mr. Osborne. No statement.
    Mr. Souder. Mr. Burns, before this hearing, you met with 
the bipartisan caucus leaders, Congressman Calvert, Congressman 
Larsen, Congressman Baird.
    Mr. Burns. Yes.
    Mr. Souder. They had specifically asked you to come back 
with what the Federal Government was doing in a coordinated way 
to tackle the problem of meth. Could you elaborate on that a 
little bit and what your plans are to come back to the meth 
efforts we have been organizing aggressively here in Congress? 
And we would like to hear what the administration is doing.
    Mr. Burns. Yes, let me start by saying, as many of you know 
who have followed this issue, we had great successes in 
stemming the flow of pseudoephedrine from Canada into Central 
Valley, CA, Congresswoman Watson, your State. We saw a drastic 
reduction in the number of super labs, super labs being a lab 
that can produce 10 pounds or more methamphetamine in a 24-hour 
period.
    We saw those labs, we believe, go south to Mexico. So the 
strategy this the administration had, Ms. Birkmeyer and Mr. 
Rannazzisi and our brothers and sisters in law enforcement and 
across the country, had a year ago has changed. This is not an 
issue that you can come up with the solution, that is, forever 
going to work. So I look forward, and I am pleased that the 
meth caucus has agreed to sit down with us and look at the 
immediate and best practices we can employ to making the 
problem smaller.
    With respect to moving the meth to Mexico, for example--and 
I have talked about a synthetic action plan that we have come 
up with. There are efforts underway and the meth caucus has 
agreed to assist us in dealing with China, Hong Kong, Czech 
Republic and Germany and other countries that export 
pseudoephedrine, primarily and formerly to Canada, but now 
primarily to Mexico. Any assistance that can be provided in 
conjunction with the administration will be well received.
    Ms. Birkmeyer and the national methamphetamine chemical 
initiative, now I am talking about the domestic side of 
methamphetamine, bringing together law enforcement officers 
from Florida and from Nebraska and from North Carolina and 
every State in this country, Indiana, to look at best practices 
and to make recommendations to us with respect to what will 
work--who better than the women and men in the field and in the 
trenches of these sheriffs and folks behind us that give us----
    Mr. Souder. Mr. Burns, I appreciate that.
    Mr. Burns. Sure.
    Mr. Souder. What we want to see are not the piecemeal 
efforts which have been extraordinary. We want to see a 
coordinated effort. This is not a new drug. It didn't just 
suddenly burst on the scene. We held the first hearings under 
Mr. Mica in Congressman Ose's district right before California 
passed their childhood endangerment law, and it had to be at 
least 8 years ago when this hit California. It has been 
steadily moving across the country.
    What we see are individual HIDTAs having to come bottom up. 
We see individual programs being coordinated around the State. 
We see no national coordinating meth strategy. What I would 
like to see is not how is this piece and how we are going to do 
this and that.
    In the past 3 weeks, we have passed more pieces of 
legislation on meth which the administration could have been 
doing, which the administration could have done, but didn't do. 
We are going to keep the pressure on. What the meth caucus 
wants to hear are not the pieces but the overall strategy. How 
does this strategy tackle this?
    The Canada bust was tremendous. It dried up a portion of 
the pseudoephedrine across the border. There are only nine of 
these plants in the entire world. This isn't that hard. It is 
not going to be that easy, but we want to see a coordinated 
strategy.
    Just a little over a week ago, the Attorney General said 
that meth was an epidemic, which is not what we have been 
hearing out of the government, and he said it is the most 
dangerous drug in America. Does ONDCP agree with that? Do you 
think that is the most dangerous drug in America?
    Mr. Burns. I don't think anyone would disagree with 
Attorney General Gonzales and his statement regarding the 
destructive nature of methamphetamine. I don't know that he 
called it an epidemic.
    Mr. Souder. That is a quote.
    Mr. Burns. I made the same statement in Portland, OR, a 
couple of weeks ago. Based upon my experience there is no more 
serious drug in the country. But as you know, and as the Office 
of National Drug Control Policy, we also have to deal with 
heroin in the northeast where they would laugh if you told them 
there is a meth epidemic. We have to deal with gangs in Chicago 
who would laugh if we told them there is a meth epidemic. We 
have to deal with the fact that there are more kids in 
treatment for marijuana than all the other kids combined and 
75\1/2\ million are using that drug. We have to be able to 
address all of the drugs and all of the problems on a 
comprehensive----
    Mr. Souder. So you don't agree it is the most dangerous 
drug in America. In other words, its rate of increase, the way 
it grabs, it's impact on the State and local law enforcement. 
Look, I want to say for the record, you have been an ally on 
this internally----
    Mr. Burns. Thank you.
    Mr. Souder [continuing]. And it has been very difficult. 
But we are not arguing that cocaine isn't a dangerous drug or 
that heroin isn't a dangerous drug, but they are relatively 
flat. What we are seeing, as many of the African-American 
interim big city organizations realize they can cut out the 
Colombians, go straight with the Mexicans, and when they 
convert over to meth, we are going to see an epidemic like 
never before in America as it hits the areas where they don't 
have an epidemic.
    That is why the Attorney General says it is the most 
dangerous drug and we want the ONDCP to acknowledge it. One of 
those is my next question. The President with the active 
backing of ONDCP proposed cutting the HIDTA, the High Intensity 
Drug Trafficking Areas Program by 60 percent, which we have 
restored, in fact increased, eliminating the Safe and Drug-free 
Schools State grants, which we put the money back for in 
Congress, eliminating the Burn grants to State and local law 
enforcement, which we will hear on our critical second panel, 
wiping out the Meth Hot Spots Program, which we have restored.
    Now the question is, are ONDCP and the administration ready 
to say we were wrong--and as we go to conference here, are they 
going to back us on the meth questions--and if you are not 
prepared to say that today, I hope you will take it back to the 
Director of ONDCP and the White House that Congress has spoken. 
We need you not to come up and say, look, we are working on the 
meth piecemeal. We need you to stop cutting the budget on how 
we are trying to address it. We need you to back up the U.S. 
Congress as we try to move it forward and back up the State and 
local law enforcement, the DEA agents, in the field so they can 
stop this before we bemoan 2 years later that the statistics 
ate us alive.
    Mr. Burns. I will deliver the message, Congressman, I hear 
you loud and clear, I think we heard it loud and clear in the 
House and the Senate with respect to HIDTA and other assistance 
in State and local law enforcement.
    As you mentioned prior to the hearing, I met with the meth 
caucus, met with Congressmen Larsen and Baird and Calvert and 
admitted that we would make an attempt to do it in a package 
fashion and not piecemeal and comprehensive. You and I see each 
other enough. You can make sure I do that.
    Mr. Souder. Mr. Rannazzisi, is it the DEA position that 
India, Mexico, Germany, China, are cooperating with us at this 
point on the precursors? We put it in the State Department bill 
last week for data collection. What other tools do you have 
that we could help with?
    Mr. Rannazzisi. Well, I believe we are getting good 
cooperation from our international counterparts. Mexico--we are 
in constant contact with Mexico and Mexico recognizes the 
problem, recognizes that pseudoephedrine, as many could go into 
their country and we are working very closely with them, with 
their competent authority that handles the chemicals. They are 
looking at the problem just as strongly as we are.
    As far as the other countries you mentioned, all of those 
countries have been more than cooperative with us, you know, on 
specific information. If we ask them, you know, they will 
provide the information. We all sit on the same international 
committees. It is not a one-on-one--it is more of a--like U.N. 
committees, for instance. We sit on U.N. committees, Operation 
Topaz, committees like that, where we actually share 
information on chemical flows through the world. So the 
cooperation is good.
    Now, on the second part of your question, I am sorry, could 
you repeat that, please?
    Mr. Souder. We would like specific suggestions you might 
have to enable us to make DEA more effective as you try to 
intercept the pseudoephedrine coming in. It is coming from a 
few known places, we have the data on that, known cooperation, 
there are obviously certification processes that the drug czar 
can recommend, administration can recommend and decertify 
countries if they don't cooperate. What kind of cooperation do 
we need in that area?
    Mr. Placido, when he testified here a number of weeks ago, 
he promised he was going to provide a list to this committee a 
list of how DEA and the organized way it has been tackling 
meth, not--kind of generally gave us a couple of good programs 
he was working. My understanding is, is that still going 
through clearances? We need to see those documents.
    We want to know what systemic way DEA is tackling this 
issue as a critical part of components. If I can add one last 
thing, you had the Kentucky program that was really 
interesting. That one of the things we have learned in the 
process here is our asset forfeiture laws may be weaker than 
they need to be as far as seizing certain assets in the home 
cooker cases. If you have any suggestions or informal advice 
you want to give to us as we develop those kinds of pieces of 
legislation and move forth in ways we might be able to put that 
in some of the cleanup costs, what we could do to go forward 
and help promote that program like you have in Kentucky, 
because that would be a big break through for local law 
enforcement.
    Mr. Rannazzisi. As far as what we are doing and what we 
need to do to go further, as far as the chemicals, that is 
something I am really not prepared to talk about. But I will 
get back to you, and I will get Mr. Placido and make sure those 
documents are completed and vetted and sent to the committee.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. Thank you very much. I want to thank all of 
you very much for your testimony. I want to go to you, Mr. 
Burns, and I just want to correct you on one thing. You had 
said in response to the chairman, one of the chairman's 
question, you said that if you, and you can correct me if I am 
wrong, I am not sure if I am paraphrasing that completely 
accurately, you said if you were to go to the northeast and 
said that there was a meth epidemic, that they would laugh at 
you, something of that nature?
    Mr. Burns. Yes.
    Mr. Cummings. Well, I am here to tell you that I am in the 
northeast, and we don't laugh at that, because we realize that 
for any person in this country, to suffer from drug addiction 
is like the entire country is suffering, whatever the drug may 
be. In my area it's heroin, and it is crack cocaine. But I 
believe that the people who go through that and see their 
families destroyed, see their communities destroyed, see their 
children's hopes and dreams not delayed, but snuffed out, they 
sympathize with anybody, anywhere, who is going through a 
similar problem, no matter what the drug of choice might be.
    I just want to make that clear, because I think it's very 
important that all of us understand that no matter what the 
drug is, the destructive nature of drugs is universal, and it 
has no boundaries.
    But let me just go to something else. In my opening 
statement, I talked about the effects of this meth, and I 
talked about violent behavior, I talked about psychotic 
effects. He talked about hallucinations and delusions. One of 
the things I think that concerns me greatly about 
methamphetamine, is that they can do the same thing that we 
have seen done in the inner city of Baltimore. They can create 
narco-terrorist's right in your own neighborhood.
    They don't have to come from overseas somewhere. People are 
afraid to even go into their houses or come out of them. People 
are afraid that their own children will kill them. That is a 
very, very serious business. And so when Mr. Souder talks about 
solutions to the problems, I am just wondering exactly, why is 
it--and perhaps you might be able to help me with this, Ms. 
Birkmeyer.
    Why is it that you think that 47 percent of the 
methamphetamine abusers are women? Why do you think that is?
    Ms. Birkmeyer. I am not an abuse expert.
    Mr. Cummings. OK. Maybe one of the gentlemen can tell me.
    Ms. Birkmeyer. I have learned through my travels, though, 
that because methamphetamine is a weight loss drug and women 
sometimes have the desire to appear to be slender, that it is 
appealing to them. It is a drug that gives you quite a bit of 
energy. And so in places that are rather--that you wouldn't 
think as being areas ripe for drug use, mothers who are raising 
a lot of children use it to stay awake.
    Many young women are fed methamphetamine by boyfriends or 
by peers and become addicted to it. So it is a drug that 
crosses every sphere, as you all have noted, and it is very 
dangerous to women. And it has particular impact, because it is 
drug that is popular to women, it has particular impact on 
children.
    Mr. Cummings. Speaking of children, what would you like to 
see the Federal Government do with regard to the issues that 
you raise as far as parents not being there for their children? 
Because it appears that we may very well be creating a new 
negative generational cycle, that is, a generational cycle of 
drug addicts.
    We have seen it, by the way, in my district where the 
mother, the child, the grandmother, grandfather, generation 
after generation of addicts.
    You know, how do we try? I mean, what can the Federal 
Government do to deal with their problem? Because it does not 
seem that there is any letting up of folks who are becoming 
addicted. And at the same time, while we are trying, Mr. Burns 
and many others are trying to address the problem, we still 
have little children who are simply trying to grow up, not 
pulling themselves up by their bootstraps because they don't 
have any boots and no straps. They are just trying to make it.
    And so how do we make sure that we--what can the Federal 
Government do to help folks in positions like yours, locals and 
States, deal with these kinds of issues? I am talking about the 
children aspect of it.
    Ms. Birkmeyer. I am hoping that beyond today's hearing you 
will permit the National Alliance to work with you, and I would 
love to be able to submit to you some plans and suggestions.
    I mentioned earlier the fact that we believe very strongly 
in drug-endangered children [DEC] teams. And I can't submit to 
you how important that is. I would suggest that the reason we 
have seen these generational problems is because, in the past, 
we left the kids behind. After law enforcement did their hard 
work, cleaned up a house, arrested folks, seized drugs, the 
child was handed off to the first non-felon that walked through 
the door, was never identified as a crime victim and was often 
reunited with parents as soon as they got out on bail. And 
nobody was recording that child as somebody that we needed to 
pay attention to.
    The DEC team philosophy is completely different. It 
elevates the role of that child as a victim. It ensures that 
child welfare workers work in partnership with law enforcement. 
And one of the things that we urge at the National Alliance is, 
it is not just about the rescue.
    Good for us that we rescue, good for us that we identify 
that child, but we need to follow that child long term. We have 
to make sure that immediately they get a medical exam 
appropriate for the type of environment they are found in. We 
know that we have to do developmental exams on them to see what 
this environment has done to them. We know we can't return them 
to parents until the parents are competent to be parents. And 
so that is a long-term goal.
    I think we have done a fairly good job. Nobody was talking 
about drug-endangered children 5 years ago. I mean, I am sure 
all of you were in one sense or another, but we weren't 
identifying it as a national crisis or problem. I think we have 
made strides in terms of awareness. We have a long way to go. 
There is a lot that needs to be studied.
    There is some ground-breaking research that has occurred, 
DEA chemists assisting the National Jewish Hospital and Medical 
Center in Denver, CO, and Dr. John Martyny have gone a long way 
to start the research we need to do about what are the true 
effects of the meth environment? How is it really contaminated? 
We have yet to really study what happens to a child in that 
environment.
    You can't use a child as a guinea pig, of course, so we 
need to look at the children we are taking out of there and 
see, long term, how do they suffer? What are the developmental 
delays that we see?
    We know that our treatment programs and even the great 
programs like drug court have to acknowledge the fact that 
there are children in the background when you are treating the 
adult, that if the adult has a relapse, you can't then send the 
adult home who may ignore or, worse yet, harm the child.
    So I think we are doing a decent job on consciousness 
raising.
    I would appreciate the opportunity to work with you and 
this committee in the future to submit suggestions. We have got 
a long list.
    Mr. Cummings. Thank you very much.
    Mr. Souder. Yield to the vice chairman, Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman. I will make this very 
brief, and it is a simple question.
    What is your one suggestion for Congress in order to--what 
is the one thing we in Congress can do to attack this meth 
problem? And we can just start from left to right. I would like 
to hear your one suggestion, if you could just boil it down, 
keep it short and simple. I only have 5 minutes. I am not the 
chairman, I am not the ranking member.
    Mr. Burns. Well, I think Chairman Souder hit the nail on 
the head. I mean, sometimes it is difficult for us in the 
administration to keep up with Congress and the legislation 
that is being proposed and find out who is going where and when 
and why.
    I think, if I had one suggestion to make, it would be that 
we make a concerted effort to sit down and come up with a 
comprehensive package to address the issue. That would be my 
one recommendation.
    Mr. Rannazzisi. I think that the recommendations that were 
put forth in the National Center Drug Action Plan should be 
taken seriously. And, basically, they are a very good starting 
point as far as where we should be down the road to combat 
methamphetamine.
    Ms. Birkmeyer. Mr. Burns stole the words right out of my 
mouth, and that is, a comprehensive approach. It is something 
that the National Methamphetamine Chemicals Initiative has been 
pushing since 1999. But particularly with respect to children, 
I think every time you look at this aspect of methamphetamine--
and, mind you, drug-endangered children aren't exclusive to 
meth; you well know that a cocaine home or a marijuana home or 
a heroin home can be just as dangerous and terrifying to a 
child. But it really is all about comprehensive approach and 
thinking every time we do something, how is this going to 
affect children and how can we make sure that we get them the 
services they need.
    Mr. McHenry. Thank you.
    Mr. Souder. Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    Mr. Burns suggested that the meth problem is not as bad or 
as broad as cocaine, heroin, and others. In our experience in 
North Carolina, meth certainly is a much bigger problem than 
other illicit drugs. If what you say is correct, however, it 
may not be correct for long.
    What I mean by that is, widespread meth abuse is relatively 
recent, and meth may replace heroin, cocaine, and others as the 
worst drug problem in America. Hindsight shows us something we 
could have done differently when cocaine and heroin problems 
were developing. Learning from those lessons, what can we do to 
adapt them to fight meth ahead of the curve?
    Mr. Burns. Well, and perhaps I haven't articulated well, I 
was talking about looking at the problem from a national level.
    And if I can go back, Ranking Member Cummings, and just 
respond briefly to your comment, I would never insinuate or 
state that there is anything humorous about any of this. I was 
talking about, on a national level, trying to look at cocaine 
and methamphetamine and marijuana.
    I buried a brother 52 years old on July 8th who suffered 
the disease of addiction for 27 years. He was in a mining 
accident and never got off pills and never got off alcohol. My 
mother understands it, my remaining brother understands it, and 
I understand it. And there is nothing funny about it.
    With respect to your question. All problems are personal. 
When I came to Washington, DC, from Cedar City, UT, the No. 1 
issue that I brought, an area of expertise, was 
methamphetamine. Perception is reality. You are correct, 
however, that in different parts of the country, different law 
enforcement agencies and policymakers have to deal with their 
present problems.
    What are we doing to send the message from the West Coast 
to the East Coast about best practices? Ms. Birkmeyer and Mr. 
Rannazzisi have been with me on numerous town halls and summits 
and meetings to try to bring together Federal, State, and local 
law enforcement, to bring together members of communities.
    We talk about educating people in the business community. 
We talk about the drug-endangered children program and training 
we can put together. We talk about educating law enforcement. 
We actually bring people from the West Coast to the East Coast.
    I have been to Maine and New Hampshire and Connecticut and, 
most recently, Rhode Island. We are working on a summit there 
to talk about methamphetamine before they even have, frankly, a 
lab problem or meth problems, to try and get ahead of the 
problems. So that is what we are doing in the administration.
    Ms. Foxx. Thank you.
    Mr. Souder. Mr. Mica.
    Mr. Mica. OK. Mr. Burns, this is a great report--I sent it 
to you, Mr. Chairman--from the Washington Times done by a Guy 
Taylor. They did a series. This one, this part of it, is 
entitled Meth's Infection: Labs Spread Bitterness to 
Communities, a series--part of a series.
    In this he says, ``In Tennessee, the Department of Child 
Services investigated meth-related cases involving more than 
750 children from just last October to February alone.''
    Let us take another State quoted in here.
    ``Indiana reported a thousand raids''--that is your home 
State, Mr. Chairman--``on mom-and-pop meth labs. One of the 
sheriffs of Vigo County said the annual cost of running the 
jail jumped from $800,000 7 years ago to $3\1/2\ million last 
year. And he said 80 percent of its more than 250 prisoners are 
held on meth-related charges.'' Furthermore, this report says, 
``more than half of the local law enforcement representatives 
in 45 States surveyed this month by the National Association of 
Counties, NACo, listed meth before marijuana and cocaine.''
    That is an epidemic, OK? The Attorney General said it is an 
epidemic, the county and local officials are saying it is an 
epidemic. This is the most out of control I have ever seen, 
since I have served in Congress, of any narcotic. And we had 
them in the mid-1990's, dropping like flies in central Florida 
from the heroin epidemic, when we had people dying in those 
numbers.
    My question is, on the education side, what kind of a 
targeted program and how much of our resources in dollars or 
percent of dollars are we spending to address this? Could you 
tell me?
    Mr. Burns. I couldn't give you a figure with respect to----
    Mr. Mica. Well, that scares me if you can't give me a 
figure.
    Mr. Burns. Well, then be scared, because I can't. I mean, I 
can get back to you and try and figure out how much goes 
toward----
    Mr. Mica. See, now that scares me, too, because when you 
have these kinds of statistics and we don't have a plan and we 
don't know how much money we are spending on it, there is 
something wrong.
    This is an epidemic. This meeting to sit down should have 
occurred a long time ago. This isn't something just new on the 
block.
    Mr. Souder and I were--he told you about 7, 8 years ago; 
and this has continued to build, and now it has reached a 
crescendo. It is affecting everybody. And we need a plan with--
you know, we helped get the education programs started in this 
subcommittee. We want those dollars spent where there is a 
problem, so some of that money needs to be diverted, a program 
needs to be developed.
    Hell, if we operated our campaigns this way, well, let us 
just sit around and think about it, maybe we can target this 
group after the election, none of us would be here. And one of 
the reasons we put together a National Media Campaign was 
because we could focus attention, a message, and get it to 
where the problem or the issue was, the people that we want it 
to affect.
    Quite frankly, I am disturbed because I don't see that 
happening.
    From a law enforcement standpoint, we have one--let us see. 
We have the deputy officer of drug enforcement and Laura 
Birkmeyer, Joseph and Laura. What is the law enforcement--do we 
need to change Federal law? Do we need--what do we need to do? 
Do you have specific recommendations? Is there something 
missing that we can't do? I know the administration came up 
with changing some of the emphasis from the HIDTAs, and I 
supported that. It didn't meet very well here in targeting 
money, because the HIDTAs were supposed to go after high-
intensity drug traffic.
    Is that part of the problem, not the resources to get 
there? Money? Or is it laws? What is it from the law 
enforcement standpoint? One at a time.
    Mr. Burns. Well, sir, as far as the resources, again, 
currently, that is something that I couldn't answer at this 
hearing. It is something I would have to go back----
    Mr. Mica. Well, OK.
    You know what I would suggest, Mr. Chairman? We get the 
Attorney General and some of his folks, we get DEA and their 
folks, we get the U.S. attorneys, and anyone else who is 
involved in this, and we bring them together on an immediate 
basis. We need a plan.
    You know, the kids have this ``Sounds like a plan?'' I 
don't hear anything that sounds like a plan. So we need a plan 
to deal with this from the law enforcement standpoint.
    I love treatment. You know, treatment is great. But I will 
tell you, by the time you are treating these people, it is way 
too late in the game. They have already destroyed their lives, 
their families' lives, their kids' lives, and everybody else's 
lives in the process.
    The other thing, too, we haven't done, Mr. Chairman. We 
need to go back and look at the way we are collecting 
statistics. Statistics today versus the way we have required 
these being put together don't show us the whole picture. I 
don't know if the subcommittee needs to work on legislation.
    We are looking at the whole picture. You know, we look at 
26,000--now we are up to--drug overdose deaths, drug-related. 
We are looking at drug-related deaths; we aren't looking at the 
murders, we aren't looking at the statistics on children that 
are put into State and protective care. We don't look at all 
the other things.
    I read the paper the other day. A kid killed somebody and 
he was on meth. Now, that kid is going to go to jail. Maybe 
that will get recorded somewhere. The poor person that was 
killed in the accident is a drug-related death. I will bet you 
that wasn't counted.
    But we need a plan. I would say that you demand that the 
law enforcement people, starting with the Attorney General, who 
has said, as you said, this is an epidemic, that we get 
together.
    Have you all sat down? Has DEA sat down with anyone from 
the Attorney General's, the U.S. attorney's offices, and 
discussed this issue?
    Mr. Burns. Absolutely.
    Mr. Mica. But you don't have a plan?
    Mr. Burns. We do have a plan. Right now between working 
with ONDCP on the----
    Mr. Mica. He doesn't have a plan.
    Mr. Burns. Well, I have a plan if you will let me answer. I 
am trying to respond to your question, Congressman.
    Mr. Mica. You came before this subcommittee and you can't 
cite or recite to this subcommittee, which is in charge of our 
national drug policy, what resources are being targeted. You 
can't even agree on whether this is an epidemic, which the 
Attorney General or other officers of this administration are 
saying.
    We need a plan. I need to know how much money we need. If 
you need more resources, this is the subcommittee that can do 
it. If we need more enforcement tools, we need to change the 
law. We need to do it now rather than later. This is hell on 
wheels as far as doing damage to the very basic fabric of our 
society, so we need a plan.
    I need to talk to John Walters. We need to talk to Alberto 
Gonzales, and we need a plan. We need a summit on this issue 
immediately and we need people making decisions, getting 
legislation here, getting you the resources that you need to do 
the job.
    I am not criticizing you. I am just saying, this is 
something that we have to come together on somewhat in the vein 
of what you said, but we should have been doing it earlier 
rather than later.
    I yield back, Mr. Chairman.
    Mr. Souder. Are there any specific recommendations in that 
book you are waving?
    Mr. Burns. I am sorry?
    Mr. Souder. My understanding is, there are no specific 
recommendations in that report?
    Mr. Burns. There are specific recommendations.
    Mr. Souder. That those are things you are looking at?
    Mr. Burns. Yes.
    Mr. Souder. But they are not recommendations.
    Mr. Burns. We have two more meetings of the inner working 
group; and as I mentioned today to the meth subcommittee, after 
we meet in the intergovernmental arena, we plan to sit down 
with the meth caucus and with Members and try and come up with 
a comprehensive plan.
    Mr. Mica. Mr. Chairman--see, you know the way this works, 
they are deciding budgets right now, finances. So if you need 
money for this, resources, you need to get us the information. 
We are looking at next year doing this. If you need changes in 
the law, we need to know now rather than later. Whatever it 
takes, this needs to be put on an emergency, expedited basis if 
we are going to get anything done.
    We have this little break in here. You should come back 
before we come back with specific recommendations, with a plan 
for the education drug money. If you need a supplemental, we 
will do a supplemental, whatever it takes. This is slaughter on 
the streets of the United States.
    We have identified the problem. It is not Plan Colombia; we 
have been there, we have done that. It is not designer drugs; 
we have been there and done that. This is meth popping up 
everywhere, and we have to get a handle on it. So you guys come 
up with a plan.
    Mr. Souder. Mr. Osborne, did you have any comments?
    Mr. Osborne. Thank you, Mr. Chairman. I just have a 
comment. Obviously there is a little frustration here, and I 
can----
    Mr. Burns. I really didn't sense that.
    Mr. Osborne. And it was building within me as I sat. And, 
you know, the question was, what one thing would you suggest? 
And I heard you say, well, we need a comprehensive plan. I 
guess that is--but it seems like there ought to be more of a 
rifle shot.
    I mean, some of the things that come to mind: Education, 
there are power points, there are very graphic videos that 
could be shown to every child in the United States if you 
wanted to do that. We could target parents, make sure they 
understood the scope of the problem.
    As far as I am concerned, from where I am living, meth 
currently is the biggest threat to the United States, maybe 
even including al Qaeda--and I mean that seriously--in terms of 
the very fabric, the very structure of our Nation. And to have 
the administration apparently not even be aware of this, that 
this is the No. 1 drug problem, was really difficult to hear.
    A couple other things: Funding, we went from $1 billion for 
Byrne grants 2 or 3 years ago to $300 million. We have cut it 
by one-third, and the chairman and others have fought to get a 
little bit back. But obviously I would think somebody would 
say, well, we need more money for this, because that is where 
it interdicts it, on the street, is in the Byrne grants, in the 
HIDA grants, in the COPS. HIDA has been a fairly level; COPS, 
we are struggling.
    Laws, do we need a national standard? Right now, each State 
is coming up with a standard, and so what is happening, you are 
pushing the traffic from one State to another: Where is the 
toughest State? And then the one that isn't very tough, well, 
they are going that way.
    Do we need a national standard as far as how we handle 
pseudophed? Do we make it a schedule 5? What do we do? Those 
are things you could talk about.
    What are some of the penalties for the manufacture and 
sale? Should we make this something like life? Should we make 
it 30 years? What should we do? We have talked about rehab.
    And then last, the precursors. We have introduced--the 
chairman and others this last week, we introduced an amendment 
which I think made some sense to target the five largest 
exporters and importers of pseudophedrine. And what we have 
said is, OK, if you don't cooperate with the Drug Enforcement 
Administration and let them know where those shipments are 
going so we can track and find the superlabs, then we cutoff 
your international aid; you don't get any money from the United 
States.
    I didn't hear any comment on that, but we have tried to 
push you to see. We called, many times, the DEA, my staff and 
I, over the last 3 or 4 weeks and we tried to say, what can we 
do? And we couldn't seem to get an answer. So there is 
frustration here.
    And I am sure you are doing the best you can, and we are 
not trying to throw rocks at you, although I guess we are. But 
we are saying there is a sense of urgency here, and we need 
specifics, we don't need generalities at this point.
    So I really don't have any further questions. I just wanted 
to express my feeling of frustration as well as several others 
up here and from where I am seeing the problem out in the 
countryside.
    And I yield back, Mr. Chairman.
    Mr. Souder. Thank you. And before wrapping up this panel, I 
just want to restate a couple of basic points, in that we 
appreciate all of your service, we appreciate the fact that 
some things have been done on methamphetamine; and in certain 
areas, very critical things, such as what we thought at one 
point was taking down 40 percent of the pseudophedrine company, 
in the company in Detroit bust, now we find out it wasn't; that 
what our frustration here is, I have never seen--and all of you 
know, we couldn't have been more aggressive on the cocaine in 
Colombia, and heroin, drug-free schools, community grants, drug 
testing programs.
    It is not that I don't believe all that is important. I 
understand there is nobody on meth who doesn't start on 
marijuana. Tobacco and alcohol can be gateway to drugs, to many 
things, but, hey, there is a direct line from marijuana into 
meth that we are seeing around the country. And I appreciate 
that difficulty.
    What our frustration here is, is that this has been a 
building pattern moving from west to east. And when it hits a 
zone, nothing is like it. Now we are seeing it go from rural to 
small town, and seeing it hit the first cities. And when it 
hits a city, as the U.S. attorney said in Minneapolis--which is 
no small town, the Minneapolis size, about a million and a 
half--it hits. And when it hits that, it changes its form, it 
just overwhelms a city. On the St. Paul side, the district 
attorney there said that they went from nothing to 85 percent 
in 12 months of children under child protection, were all of a 
sudden under meth. From nothing to 85 percent. Only three mom-
and-pop labs in St. Paul.
    The rural counties are saying we have mom-and-pop labs, 
these clandestine labs, but it is a different form of meth that 
hits the cities. But when it hits, in Omaha, Minneapolis-St. 
Paul, and a few of those cities are the first big cities hit at 
the edges of Detroit, edges of New Orleans. And as it marches 
east, the question is, what is the strategy to stop it?
    So what we heard in the budget is--and Mr. Mica's question, 
what is the prevention program? Well, what we heard was, Safe 
and Drug-Free Schools isn't working. Well, where is the 
proposal to make it work? What I would like to hear out of 
ONDCP is specific suggestions, as the drug oversight office, of 
how we can improve as we move to redoing No Child Left Behind, 
which will include Safe and Drug-Free Schools.
    We have basically a year and a half; let's figure out how 
to make this program work. Don't zero it out. It's the only 
prevention program we've got at the school level. In the 
National Ad Campaign, what's happening in meth is it's bubbling 
up. I have never seen in all my years of working in narcotics 
as a staffer, and now as a Member, something that is coming up 
from the grass-roots, rather than the people in charge, 
figuring out how to get ahead of it. We now see the survey at 
the county level doing it. You see this free-lancing among 
Members of Congress. How do we come up with a Meth Hot Spots 
program?
    It was every year the administration zeroing out, and it 
gets bigger. It is one of the only programs in this budget 
thing that it is like the administration says, zero it out. It 
was at $12 million, it comes back at $18; zero out it, and it 
comes back at $25. This year it was zeroed out at $32 and it is 
back at $38. Why? Because members know that the grass-roots of 
the problem is Meth Hot Spots.
    You would think somewhere in that 5-year plan that somebody 
would have said, you know, this isn't going to go away; maybe 
we ought to manage it, maybe we ought to figure out where the 
Meth Hot Spots programs ought to be, rather than trying to zero 
it out, if the Members of Congress are going to put it in.
    And it is even the leadership of both sides of the House 
right now. This started as a Member bottom-up attack, 
basically, on the appropriations bills and the authorizing 
bills because we couldn't get a meth week, we could get the 
bills through.
    So what we did in a bipartisan way is, we sat down together 
and said, we are going to make every week a meth week until 
somebody figures this out, and every single bill that comes 
through this floor every single week we are going to attach 
meth amendments until somebody comes up with a strategy.
    This isn't the way you tackle narcotics. And I hope that 
each agency is figuring out that this isn't going to stop. We 
are just going to keep it up until somebody comes up with a 
strategy. And it will be a hit-or-miss, random type of thing 
that the people in charge of coming up with a strategy need to 
say, what do we need to do interdiction internationally? What 
do we need to do in law enforcement? What do we need to do for 
children? What do we need to do in prevention?
    And say, OK, now let us prioritize this: What do we do to 
get ahead of the curve rather than chase behind it? And that 
that report, good as it is--our staffs have gone through it--
the group is still working on drafting things even though we 
are 6 to 8 years into this pattern of steady marching, lack of 
stabilizing the rural areas, move to small town, and now 
starting to move into urban areas.
    How many years do we have to see the same pattern at an 
increasing rate in the United States until there is something 
where we have concrete recommendations, not another cotton-
pickin' meeting, and that it needs to move in that direction. I 
believe you are getting the message.
    I agree with Director Tandy that we have to get in and look 
at the systems that are bringing this in, because we need to 
hear from the administration that they support Chairman 
Boehlert's bill on cleanup and that we can do that.
    How do we move this Kentucky program into a larger scale so 
we don't overwhelm the locals? What can we do in the child 
endangerment question and understand that, look, local 
officials are dealing with this stuff, but to get it in a 
systematic way in each of your departments as they are tackling 
the many things and narcotics efforts that they are doing. And 
we applaud their efforts.
    At the same time, what this is, is if you can't get on top 
of it and make this a crash program, it is going to be 
micromanaged with lots of different pieces, without a strategy. 
And that is what is happening.
    And it is going to continue happening, and this committee 
is trying desperately to say, lead. You are the executive 
branch. You are doing this day to day. You have agents in the 
field. Because the way you do this is not having us do random 
amendments coming up, but we couldn't figure out any other way 
to do it.
    Any comments?
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I will just be very brief.
    When you are sitting here in the Congress and you often--I 
think meaningful life is one way one's self has constant self-
examination and where one tries to figure out if what one is 
doing is being effective and efficient.
    And I have to tell you, as I sit here, I couldn't help but 
wonder whether this is effective and efficient, because it 
seems as if on both sides of the aisle we all agree that we 
have a very urgent situation.
    Many years ago people thought that they had an urgent 
situation in the inner cities. Now, in Baltimore, there are 
250-plus murders in a population of less than 650,000 every 
year. There would be many, many more if we did not have one of 
the best shock trauma centers in the world. That doesn't even 
go to all of the hospital admissions, it doesn't go to all the 
children being left behind, it doesn't go to the AIDS that is 
spreading through needles.
    And I guess what I am saying is that in some kind of way we 
have to be effective and efficient. We really do. While I--you 
know, I think that we have to really protect ourselves against 
terrorist attacks and things of that nature. I am telling you, 
what I said a little bit earlier, I meant it; we have 
terrorists in our own houses. And until we get a comprehensive 
plan and actually execute that plan, we are going to be saying 
the same things over and over again 10 years from now, only the 
problem is going to be 30 times greater.
    And so I would beg you--I would ask, but asking is too 
cheap, because there is some little child right now who is 
going without a parent; there is somebody probably in high 
school who is thinking about going on a date with somebody on 
Saturday night, where they are going to be introduced to this 
stuff, and it is going to ruin them for the rest of their 
lives. And while we are talking and while we are bickering and 
trying to figure this out, folks are going to suffer.
    So that is why I am just so glad that the word ``urgency'' 
has been used here. I don't want the Nation to be an area with 
a population of 650,000 and 250-plus murders. And you know what 
happens? There comes a point in time when you begin to 
celebrate the fact that you didn't get up to 300 murders. That 
is deep.
    And so it is that I hope you all will listen, and listen 
carefully--particularly you, Mr. Burns--and will take back that 
message of urgency. It is not enough to say, we are still 
getting it together. People are dying and suffering, and 
generations are being created. New generational cycles are 
being created, like Ms. Birkmeyer said. And when we are dancing 
with the angels, there will be people who are suffering for 
what we didn't do under our watch.
    Mr. Souder. Ms. Foxx, did you have a comment?
    Ms. Foxx. Well, I just wanted to say that I really 
appreciate what the chairman and the ranking member have said, 
and the comments from Representative Mica and Representative 
Osborne. I have been very disappointed in the responses that we 
received today, too, so much so I wasn't sure how to respond to 
you all.
    But I think that we have to say to you, stop traveling so 
much, stop having summits, and do a little work on the issue 
that we brought to your attention.
    I think the chairman is very right. You can either give 
some leadership to this, or you can see the Congress 
micromanaging what you are trying to do. And I would love, 
frankly, to see a schedule of the trips and how much money has 
been spent on it, and then see what results you got from it; 
because I think everything you do should be giving you some 
results, and we are not hearing that at all.
    Mr. Souder. Thank you. And I do want to say something I 
said earlier. And I know Mr. Burns has raised some of these 
questions internally, and hopefully we just strengthened your 
hand in working with the State and locals. But we want the 
message to go back clearly to ONDCP: You have to lead.
    DEA has attempted this, a little bit different type of a 
thing for DEA to tackle, but you have been at the grassroots 
level doing it. We need to figure out how now to have a look at 
what you have been doing at the grassroots level and say, look, 
how can we do this systematically rather than each HIDTA coming 
up with a strategy, each DEA task force.
    In my area, the DEA leads the task force, and they are 
obviously having to deal with meth cases. How can we figure 
out, like we do on cocaine and heroin, how to do this 
systemically? And I look forward to working with you.
    And thank you for bringing the attention to the children 
question, because often, as we are looking at the law 
enforcement question, we forget that, A, you lock up the 
parents, what happens to the kids? And how do we deal with 
this? I think, like crack babies, we will find that the kids 
are pretty resilient if we can get to them and get them out of 
the house and protect them while we get their parents dried out 
and back functioning as parents.
    I thank this panel. I look forward to continuing to work 
with each of you.
    Would the second panel please come forward.
    Dr. Nancy Young, Director of the National Center for 
Substance Abuse and Children Welfare, and Director of the 
Children and Family Futures; Valerie Brown, National 
Association of Counties; Freida Baker, Deputy Director of 
Family and Children's Services, Alabama Department of Human 
Resources; Chief Deputy Phil Byers, Rutherford County Sheriff's 
Office of North Carolina; Sylvia Deporto, Deputy Director of 
the Riverside County Children's Services of California; Betsy 
Dunn, Investigator, Peer Supervisor, Tennessee Department of 
Children's Services, Child Protective Services Division; Chief 
Don Owens, Titusville Police Department, Pennsylvania; and 
Sheriff Mark Shook, Watauga County Sheriff's Department, North 
Carolina.
    Before you sit down, if you will find your places and 
stand. I will swear each of you in.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    And, Ms. Foxx, would you like to welcome your North 
Carolina sheriff and friend again?
    Ms. Foxx. I would. We are really very pleased to have 
Sheriff Mark Shook from Watauga County with us here. As I 
stated in my comments earlier, I have known Sheriff Shook all 
his life. That is an unfortunate comment on my age. But his 
family and my husband's family, particularly, have grown up 
together for a long time.
    Mark has done remarkably well as a law enforcement officer 
in Watauga County, and we are so fortunate to have him as 
Sheriff. His family is still my neighbor, and they are doing a 
great job, and we are very pleased to have him. This is his 
first trip to D.C., by the way, so he sort of had a trial by 
fire on his first trip.
    Mr. Souder. Mr. McHenry, do you want to introduce your 
Sheriff?
    Mr. McHenry. Thank you, Mr. Chairman.
    I am pleased today to have the Rutherford County Chief 
Deputy Sheriff, Philip Byers, here today. Philip is a man that 
has great experience. Though a constituent of mine in 
Rutherford County, he actually went to school in your district, 
Congresswoman Foxx, at Appalachian State University. That is 
where he got his B.S., and he also attended Western Carolina 
and obtained his Master's in public administration there.
    He is a man who loves education. As a former teacher and a 
business owner, he is still very involved in that field, both 
volunteering in Rutherford County as well as his duty with the 
Sheriff's Department. He has had 14 years of law enforcement 
experience, and 4 years of that as the Chief Deputy in 
Rutherford County.
    And Rutherford County is an area that has tackled severe 
methamphetamine problems over the last few years, and it has 
the second leading number of meth labs of any county in North 
Carolina. And the reason why I believe the number is so high is 
not only because of the issues that we are dealing with in 
Rutherford County, but because of the good work of the 
Sheriff's Department there to root out these meth labs. Just 
last week they busted their 13th meth lab this year.
    And so I appreciate the hard work of Phil.
    I certainly appreciate him traveling to Washington, DC, 
with his new wife, Sheila, and I thank you both for being here.
    And it is Philip's first time testifying before Congress, 
so, Mr. Chairman, I just ask you to go easy on him. But if you 
don't go easy on him, I am sure he can hold his own.
    Thank you, Mr. Chairman.
    Mr. Souder. And I take it you didn't know him as he grew 
up?
    Mr. McHenry. I did not. Maybe he knew me.
    Mr. Souder. And I hope we didn't scare you off with the 
first panel.
    I thank each of you for coming today. I would like to yield 
to Dr. Young for her statement.

STATEMENTS OF NANCY K. YOUNG, Ph.D., DIRECTOR, NATIONAL CENTER 
 ON SUBSTANCE ABUSE AND CHILD WELFARE, AND DIRECTOR, CHILDREN 
  AND FAMILY FUTURES; VALERIE BROWN, NATIONAL ASSOCIATION OF 
    COUNTIES; FREIDA S. BAKER, DEPUTY DIRECTOR, FAMILY AND 
  CHILDREN'S SERVICES, ALABAMA DEPARTMENT OF HUMAN RESOURCES; 
  PHIL BYERS, CHIEF DEPUTY, RUTHERFORD COUNTY, NC, SHERIFF'S 
OFFICE; SYLVIA DEPORTO, DEPUTY DIRECTOR, RIVERSIDE COUNTY, CA, 
    CHILDREN'S SERVICES; BETSY DUNN, INVESTIGATOR AND PEER 
SUPERVISOR, TENNESSEE DEPARTMENT OF CHILDREN'S SERVICES, CHILD 
PROTECTIVE SERVICES DIVISION; DON OWENS, CHIEF, TITUSVILLE, PA, 
POLICE DEPARTMENT; AND SHERIFF MARK SHOOK, WATAUGA COUNTY, NC, 
                      SHERIFF'S DEPARTMENT

               STATEMENT OF NANCY K. YOUNG, Ph.D.

    Ms. Young. Thank you. Good afternoon, Chairman Souder, 
members of the committee. Thank you for the opportunity to 
address you today. As the Director of Children and Family 
Futures, I direct the National Center on Substance Abuse and 
Child Welfare. We are funded by the Substance Abuse and Mental 
Health Services Administration, and also by the Administration 
on Children, Youth and Families. However, my testimony today 
are the views of myself and not the Federal agencies.
    There are six points that I would like to discuss today 
that are detailed in my written statement, including a list of 
suggested actions.
    First, to summarize some data about child welfare trends 
and about who is coming into treatment. Despite the increase in 
folks accessing methamphetamine treatment, the overall trend in 
child welfare has continued to decrease since 1999. At this 
point, the increase of persons seeking treatment for 
methamphetamine, we have not seen an overall increase in that 
trend for children coming into care. Details of those data are 
in the written testimony on page 3 and page 4.
    Even in California, with a decade of experience in 
addressing methamphetamine disorders, the number of kids in 
care over the past several years has continued to decrease. 
This contrasts with the cocaine epidemic of the late 1980's and 
early 1990's in which the foster care population increased by 
half. The alarming information about who is coming into 
treatment is about methamphetamine and the dramatic effect it 
has created with child welfare services in that rural 
communities have been affected and that there has been a sharp 
increase in treatment admissions for women with primary 
methamphetamine dependence.
    Among adolescents in treatment for methamphetamine, the 
majority are girls. Most disturbing is the upward trend of 
pregnant women coming to treatment with marijuana dependence 
and an even higher rate of increase for pregnant women with 
methamphetamine dependence. About 10 percent of the births in 
our country are affected by prenatal substance exposure. Page 
10 shows a table of drug use by pregnant women. That is about 
400,000 infants per year.
    My second point is the critical need for child welfare to 
differentiate between the various types of children affected by 
methamphetamine. All children of substance abusers are at risk 
of abuse and neglect. But there are six different ways in which 
children are affected specifically by methamphetamine use: 
parents who use; parents who are substance dependent; parents 
who use during pregnancy--I should say mothers who use during 
pregnancy; parents who manufacture or cook in the home; parents 
who traffic methamphetamine; and parents who operate superlabs. 
The majority of methamphetamine-afflicted children in child 
welfare are those whose parents abuse or who are 
methamphetamine dependent.
    Risks to children and the interventions for their families 
vary a great deal based on these different categories, and 
child welfare is challenged to appropriately screen for these 
groups. They are challenged to have access to quality 
assessments and to ensure that families have timely and 
comprehensive family treatment resources so that they might 
recover and reunify.
    My third point relates to the characteristics of persons 
needing treatment, especially women. Alarmingly, the majority 
of women in treatment for methamphetamine who may have also 
abused or neglected their children were, in fact, abused and 
neglected themselves as children. One-third of women in 
treatment for methamphetamine reported childhood sexual abuse.
    Here, the challenge for child welfare is twofold: to 
appropriately engage with mothers who need treatment, as well 
as to provide significant substance abuse prevention efforts to 
children currently in care. I currently know of only one State 
that targets specific prevention efforts at the children in 
foster care.
    Fourth, treatment effectiveness studies--and we have heard 
it already today--have shown that rates of recovery for 
methamphetamine use disorders are similar to other drugs of 
abuse. This message needs to be widely disseminated among child 
welfare agencies and the public.
    Fifth, there are models of effective child welfare and 
substance abuse services working together. In Sacramento County 
over the past decade they have implemented six significant 
system and practice changes. They are seeing dramatic results 
in their outcomes.
    They intervene at the very first court appearance for all 
parents with substance abuse allegations with a message of hope 
and recovery. The full text of my testimony gives the details 
of their outcomes by primary substance on page 18. Parents with 
methamphetamine dependence are reunifying with their children 
at rates similar to parents with alcohol and cocaine 
dependence, nearly twice the rate of reunifications before 
their system reforms.
    This didn't happen overnight. As I mentioned, they have 
been working on it for a decade, on the substance abuse and 
child welfare efforts.
    Finally, what can be done? We must remember and learn from 
the cocaine epidemic and its impact on child welfare. We must 
not let child removal escalate without effective prevention and 
treatment in place. We must not let a generation of children be 
mislabeled. Rather, we must ensure that they receive the early 
intervention and special education services that they need. As 
an adoptive parent of two children with these issues, I know 
first-hand that these other system interventions are critical 
for biological, foster, and adoptive families to raise these 
children to reach their full potential.
    We must recognize that in many ways we are flying blind on 
this issue. Child welfare does not routinely collect 
information about families with substance use disorders, and 
treatment agencies do not collect data from parents about 
children who may be at risk of abuse and neglect.
    In most States, we are operating on data about prenatal 
substance exposure that is more than a decade old. The last 
such study in California was in 1992, and I believe Ms. Watson 
played a significant role in making that happen. It has not 
been repeated since that effort.
    We need better data from hospitals and the maternal and 
child health systems on prenatal and at-birth screenings so we 
can appropriately monitor, intervene, and provide services for 
families with prenatal substance exposure. We need to continue 
to invest in better training for child welfare workers so that 
they can recognize methamphetamine and other substance use 
disorders. And we must continue to invest in better training 
for substance abuse treatment agencies to ensure supports are 
in place for family treatment and interventions for the 
children.
    When we refer parents to treatment as a condition of 
keeping or reunifying with their children, we must make sure 
that the treatment is state-of-the-art, comprehensive, allows 
families to be treated together, and most importantly, to meet 
the intent of the Adoption and Safe Families Act, that those 
interventions are timely.
    I hope that I will get the questions about what would you 
specifically do, because I have a list. Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Young follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.034
    
    [GRAPHIC] [TIFF OMITTED] T4946.035
    
    [GRAPHIC] [TIFF OMITTED] T4946.036
    
    [GRAPHIC] [TIFF OMITTED] T4946.037
    
    [GRAPHIC] [TIFF OMITTED] T4946.038
    
    [GRAPHIC] [TIFF OMITTED] T4946.039
    
    [GRAPHIC] [TIFF OMITTED] T4946.040
    
    [GRAPHIC] [TIFF OMITTED] T4946.041
    
    [GRAPHIC] [TIFF OMITTED] T4946.042
    
    [GRAPHIC] [TIFF OMITTED] T4946.043
    
    [GRAPHIC] [TIFF OMITTED] T4946.044
    
    [GRAPHIC] [TIFF OMITTED] T4946.045
    
    [GRAPHIC] [TIFF OMITTED] T4946.046
    
    [GRAPHIC] [TIFF OMITTED] T4946.047
    
    [GRAPHIC] [TIFF OMITTED] T4946.048
    
    [GRAPHIC] [TIFF OMITTED] T4946.049
    
    [GRAPHIC] [TIFF OMITTED] T4946.050
    
    [GRAPHIC] [TIFF OMITTED] T4946.051
    
    [GRAPHIC] [TIFF OMITTED] T4946.052
    
    [GRAPHIC] [TIFF OMITTED] T4946.053
    
    [GRAPHIC] [TIFF OMITTED] T4946.054
    
    [GRAPHIC] [TIFF OMITTED] T4946.055
    
    [GRAPHIC] [TIFF OMITTED] T4946.056
    
    [GRAPHIC] [TIFF OMITTED] T4946.057
    
    [GRAPHIC] [TIFF OMITTED] T4946.058
    
    [GRAPHIC] [TIFF OMITTED] T4946.059
    
    Mr. Souder. Ms. Brown.

                   STATEMENT OF VALERIE BROWN

    Ms. Brown. Thank you, Mr. Chairman and Ranking Member 
Cummings, for allowing me to appear this afternoon on behalf of 
the National Association of Counties on this critical issue of 
methamphetamine abuse. My name is Valerie Brown, and I am a 
county supervisor from Sonoma County, CA. That would be 
Congresswoman Watson's California.
    The National Association of Counties [NACo], is the only 
national organization that represents county governments. With 
over 2,000 member counties, we represent over 85 percent of the 
Nation's population.
    A growing issue for NACo counties is methamphetamine abuse. 
Methamphetamine, or meth, is consuming a greater share of 
county resources because of its devastating and addictive 
nature. For Congressman Mica, I will boldly tell you, counties 
need more money. In many parts of the Nation, county jails are 
becoming overwhelmed with inmates on meth-related charges. 
Investigating and busting meth labs is producing longer hours 
for county law enforcement. Along with these law enforcement 
consequences, meth treatment, cleanup, and removing children 
from meth houses are all painful reminders of a community 
dealing with meth.
    Because of the need for data, NACo commissioned two surveys 
on the meth epidemic, and I would like to make three key points 
on these surveys and NACo's policy on meth.
    First, as our survey confirmed, methamphetamine abuse is a 
national drug crisis that requires national leadership.
    Second, a comprehensive, intergovernmental approach is 
needed to combat the methamphetamine epidemic. Necessary 
components must include law enforcement, treatment, prevention, 
education, public health, cleanup, research, and restricting 
the sale of pseudophedrine.
    Third, existing programs such as the Justice Assistance 
Grant Program, foster care, and mental health and substance 
abuse programs are critical to the fight against the 
devastating effects of methamphetamine.
    To elaborate, I will touch on NACo's survey on law 
enforcement. In the 500 responding sheriffs' departments, 87 
percent report increases in meth-related arrests starting 3 
years ago. Mr. Chairman, two of the States that reported 100 
percent increases in meth-related arrests during the last 3 
years are your State of Indiana and my home State of 
California.
    Additionally, 58 percent of county law enforcement agencies 
reported that meth is their largest drug problem. Meth outpaced 
cocaine at 19 percent, marijuana at 17 percent, and heroin at 3 
percent.
    Meth-related arrests represent a high proportion of crimes 
requiring incarceration. Fifty percent of the counties 
estimated that one in five of their current jail inmates are 
there because of meth-related crimes.
    In Orange County, CA, of the 11,500 new probation cases 
each year, 60 percent test positive for meth. In my home 
county, the sheriff's department estimates that 85 to 90 
percent of our drug arrests are related to methamphetamine.
    Numbers are increasing so rapidly, counties are having a 
difficult time ramping up our services to address the problem.
    We surveyed child welfare officials from the 13 States 
where services are provided at the county level. Children 
living in environments where meth is produced are considered 
drug endangered due to toxins, neglect, and abuse. Forty 
percent of all the child welfare officials in the survey 
reported increased out-of-home placements because of meth in 
the last year.
    During the past 5 years, 71 percent of the responding 
counties in my home State of California reported an increase in 
out-of-home placements. The Midwest reported similar findings, 
with 69 percent in Minnesota and 54 percent in North Dakota.
    In addition, 59 percent of county officials reported meth 
has increased the difficulty of reuniting families. An ER 
physician, who also serves as county commissioner, stated at 
our recent annual conference that a premature baby born to a 
meth-addicted mother costs approximately $1 million before the 
infant leaves the neonatal center. His center currently houses 
three drug-addicted babies.
    NACo believes that these figures confirm the need for a 
comprehensive and intergovernmental strategy to fight this 
insidious drug. A multidisciplinary approach has proven 
effective in several communities that have been facing this 
drug for many years.
    One such program is in Pierce County, WA, where a social 
worker accompanies law enforcement officials to meth busts to 
assess the effects of that environment on the children present. 
This level of cooperation starts at the top, as Pierce County 
Sheriff Paul Pastor recently stressed at a NACo meeting. 
Fighting methamphetamine in our communities requires a team-
oriented approach with all departments, which is very costly 
for counties.
    Last, I would like to make an appeal for some existing 
Federal resources. One critical program is the Justice 
Assistance Grant Program. These funds could be used for local 
law enforcement, for prevention, education, and treatment. Many 
counties use this funding for regional drug task forces 
especially in rural America. However, the administration zeroed 
out this program in its fiscal year 2006 budget request. NACo 
strongly supports restoring JAG funding during the 
appropriations process to deal with the problems of meth 
production and use.
    In conclusion, I would like to again thank you, Mr. 
Chairman and Ranking Member Cummings, for the opportunity to 
appear today on behalf of NACo. We will be conducting future 
surveys on meth abuse and look forward to reporting our 
findings and working with you to resolve this issue 
legislatively.
    Thank you, and I will be happy to answer any questions.
    Mr. Souder. Thank you. And I can't tell you how much that 
survey helped us at a very critical time.
    [The prepared statement of Ms. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.060
    
    [GRAPHIC] [TIFF OMITTED] T4946.061
    
    [GRAPHIC] [TIFF OMITTED] T4946.062
    
    [GRAPHIC] [TIFF OMITTED] T4946.063
    
    [GRAPHIC] [TIFF OMITTED] T4946.064
    
    [GRAPHIC] [TIFF OMITTED] T4946.065
    
    [GRAPHIC] [TIFF OMITTED] T4946.066
    
    Mr. Souder. Ms. Baker.

                  STATEMENT OF FREIDA S. BAKER

    Ms. Baker. Good afternoon. Thank you so much for the 
opportunity to speak with you about the impact of crystal meth 
on children and families in Alabama. I have been a social 
worker for nearly 24 years, and I have worked with families who 
struggle with a lot of things, but this crystal meth epidemic 
is as dangerous and challenging as anything we face.
    Without question, crystal meth poses a significant threat 
to vulnerable people in Alabama. The Department of Human 
Resources has several challenges with meth-related issues at 
the State level.
    First, we must ensure the safety of children and provide 
effective services to individuals affected by the drug.
    Second, we must prepare our workers through both education 
and direction.
    And, third, we must craft policy and procedures so that 
consistent methods and safeguards are in place in each of the 
State's 67 counties.
    There are important implications to the agencies that serve 
these children and their families in that, unlike other abuse 
or neglect scenarios, the home environment not only poses an 
immediate health threat to the children, but to any individual 
charged with providing services in that home as well.
    Alabama's child welfare training curriculum has a newly 
expanded focus on substance abuse, but now, in addition to 
clinical training around the dynamics of substance-abusing 
families, workers must also be taught very specific meth-
related investigative skills and cautions.
    Select training for social work staff now often mirrors law 
enforcement in terms of function and role with meth. Workers 
are now, for example, routinely taught to look around outside 
the residence for suspicious items used in making or using 
meth, such as vents or piping sticking up from the ground, or 
booby traps, wires, surveillance cameras that appear to be 
there for no intended purpose. And even with Alabama's caseload 
standards, we find that an already-strained child welfare work 
force with young, inexperienced staff is further burdened with 
the complex dynamics of crystal meth. We find that workers 
leave the agency because of personal risks, the nature of these 
cases, and the challenges of working with these families.
    Crystal meth has further complicated this multi-faceted 
issue in public child welfare. The number of children in the 
custody of Alabama's DHR has increased over the past 3 years. 
In 2001, there were approximately 5,400 children in foster care 
at year's end, and in 2004 that number had risen to 6,346 and 
continues to rise.
    Reports of child abuse or neglect related to crystal meth 
have risen dramatically in Alabama, and these increases reflect 
our system's response to changing needs and issues.
    Removal of children from their families is traumatic, and 
the added complications of meth use compound this trauma. If 
children are removed from active meth homes or labs, workers 
are instructed not to take any of the children's clothing or 
belongings from the home as they may be contaminated. Familiar 
clothing, toys, blankets are often helpful for children in this 
distressing situation, yet meth prevents even those small 
gestures for them.
    If there is obvious contamination of the clothes the child 
is wearing, clothing is to be discarded and left at the scene; 
then the child must shower as soon as possible. The child's 
personal things are left at the scene to minimize contamination 
of other areas or people.
    In 2001 only 3.9 percent of the Alabama admissions to 
foster care were due to substance abuse. Last year in Alabama, 
nearly 20 percent of admissions into foster care were a result 
of family substance abuse. The treatment community in Alabama 
has recognized the addiction crystal meth imposes. John 
Schafer, the executive director of Pathfinder, a 12-step 
spiritually based in-house treatment program in Huntsville, 
reported that 45 percent of the entries there over the last 
year have been due to crystal meth. The faith community in 
Mobile has embraced the clientele at the Shoulder, a private 
Christian-based inpatient treatment facility for substance 
abuse. Employees at this facility, when faced with funding 
shortages 3 years ago, voted to take a decrease in pay in order 
to keep serving the community and report crystal meth as 
significant. Even in counties where numbers of children in care 
have remained stable, they cite crystal meth as being a much 
more frequent reason for removal than 18 to 24 months ago. 
Statewide efforts are underway to explore all the treatment 
scenarios and to standardize protocol. The problem calls for 
coordination with law enforcement agencies, safety instructions 
and, should the need arise, decontamination instructions.
    Troy King, Alabama's attorney general, has designated a 
task force to address issues caused by crystal meth. DHR staff 
are members of the task force. The Alabama legislature recently 
passed the legislation regulating items that can be purchased 
to make crystal meth. The Governor's office has faith-based 
substance abuse initiatives, but meanwhile, the system's 
response to issues of imminent danger is to assess safety 
quickly and plan accordingly. Traditional resources and new 
creative strategies must be employed across all the human 
services agencies if we are to prevent and treat the abuse of 
crystal meth and all substances. America's children and 
families deserve our best efforts. Thank you for your time and 
attention. I am grateful for this opportunity.
    [The prepared statement of Ms. Baker follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.067
    
    [GRAPHIC] [TIFF OMITTED] T4946.068
    
    [GRAPHIC] [TIFF OMITTED] T4946.069
    
    [GRAPHIC] [TIFF OMITTED] T4946.070
    
    [GRAPHIC] [TIFF OMITTED] T4946.071
    
    [GRAPHIC] [TIFF OMITTED] T4946.072
    
    Mr. Souder. Chief Byers.

                    STATEMENT OF PHIL BYERS

    Mr. Byers. Mr. Chairman and distinguished members, I must 
first admit that being a political junkie and a C-SPAN junkie, 
I feel like I know each of you personally and have spent many, 
many hours with you at my home. It is indeed an honor to be 
here with you and to, first of all, thank you for what you are 
doing and a service that you provide to this Nation.
    I am just one little chief deputy from--well, I am just one 
chief deputy from Rutherford County, NC--maybe not little. But 
I thank you for what you are doing, each and every one of you, 
for this Nation and for these hearings.
    Rutherford County, NC, is a rural county. Again, we are in 
western North Carolina. We are comprised of 566 square miles 
and 63,000 residents. Rutherford County has historically relied 
upon a manufacturing-based economy, textile and furniture 
industries being the two largest employers. We have lost most 
of our textile jobs during the past 5 years, and the majority 
of the furniture industry jobs are also gone. Unemployment 
rates loom between 8 and 10 percent, far above the national 
average.
    Rutherford County and her citizens will recover from the 
loss of manufacturing jobs with continued good leadership. The 
economic situation will improve if and only if we can curtail 
the present methamphetamine epidemic that we are facing. And 
yes, Congressmen and Congresswomen, it is an epidemic.
    Methamphetamine addicts and cooks are driving some of 
Rutherford County's most costly social problems, including 
domestic violence, child abuse, mental illness, homelessness 
and the spread of hepatitis and AIDS. Rutherford County 
continues to struggle with social and economic setbacks caused 
directly by methamphetamine addicts and the manufacturers.
    The North Carolina State Bureau of Investigation reported 
the following responses to meth labs in Rutherford County as 
follows: 2003, 34 lab responses; 2004, 43 lab responses; and as 
of June 30th of this year, 25 lab responses. Of those, five 
children were taken from meth labs in 2003; 2004, that rose to 
24 children that we removed from meth labs. This year, as of 
June 30th, the number is up to 22. In 2004, in North Carolina 
alone, 124 children were removed from homes where 
methamphetamine labs were in operation; 24 of the children were 
residents of Rutherford County. This year, 2005, has already 
seen 22 children removed from homes where meth labs were 
operating in Rutherford County.
    Many of the children removed from meth labs are abused and 
neglected and will suffer emotional consequences for the 
remainder of their lives. The number of children present in 
methamphetamine labs is expected to continue to increase at an 
even higher rate. As the number of children present at the 
laboratories increases, more will suffer the physical and 
psychological effects associated with exposure to dangerous 
chemicals, and the number of related abuse and neglect cases 
will increase.
    Without a doubt, the most innocent victims of the meth 
epidemic are the children who are exposed. Chemicals contained 
and used in meth permeate through the rooms, thus leaving 
children exposed to meth chemicals that can cause headaches, 
nausea, dizziness and even damage to the brain, liver, spleen, 
kidneys and immune system. In 2004, 2,700 children were found 
to be affected by methamphetamine labs seized by law 
enforcement officials nationwide. Children were present in 34 
percent of the total labs seized in the United States.
    The North Carolina General Assembly, Governor and Attorney 
General are working in conjunction with local and State law 
enforcement to combat the ills of methamphetamine production 
and addiction. In 2004, the criminal penalty for manufacturing 
methamphetamine was increased from a Class H felony to a Class 
C felony. Prior to December, the punishment for manufacturing 
meth in North Carolina was 6 months probation. This 
guarantees--the new class C felony guarantees prison time for 
anyone found guilty of manufacturing.
    And again, the General Assembly is working to pass an 
additional methamphetamine lab prevention act. If approved, the 
act would limit the sale of Pseudoephedrine allowing the 
product to be sold without a prescription only by a registered 
pharmacist. The purchaser of the Pseudoephedrine would be 
required to present the pharmacist with a photo ID and must be 
18 years of age. The name and address would be obtained, and 
identification could be used and entered into the record for 
consumers and for law enforcement use. Pseudoephedrine 
purchases would be limited to no more than 9 grams of any 
mixture of the product or any products containing a controlled 
substance within a 30-day period. This law, if passed, will 
benefit the law enforcement community, but that and that alone 
are not enough.
    Restricting the sale of Pseudoephedrine products should 
occur in all 50 States. Rutherford County is contiguous to 
South Carolina, thus presenting only a short drive for 
Rutherford County citizens, Rutherford County cooks, if you 
will, to obtain Pseudoephedrine.
    Rutherford County will continue to face economic setbacks 
as a result of methamphetamine addiction. The Rutherford County 
Sheriff's Office recently transferred two vacant positions to 
the narcotics division and obtained one new position through 
local funding. This expansion was due solely to demand being 
placed on our office by the increased meth labs and 
methamphetamine addiction. Additional funds will be necessary 
to pay overtime to our officers working the methamphetamine 
cases. The meth epidemic has caused a tremendous burden on 
local law enforcement budgets, and without State and Federal 
assistance, the moneys will not be available.
    We have to this day been an area of local meth cooks making 
and selling the product. We have begun to seize Ice from Mexico 
and from super labs throughout the United States. Ice 
trafficking will continue to grow in Rutherford County, 
resulting in additional problems and abuses associated with 
meth addiction. We must place stronger and tougher restrictions 
on the Mexican border or Ice will continue to pour into the 
United States and into Rutherford County, and we will begin to 
experience an additional plague.
    Social Services has also found themselves in budget 
shortfalls due to meth labs. The Rutherford County Social 
Services is currently in need of foster parents to accommodate 
the ever-increasing number of children being removed from homes 
where meth labs are present. Social workers are constantly 
called to assist law enforcement when children are discovered 
to be living in meth labs. The department is also working to 
investigate and deal with child abuse and neglect cases as a 
result of meth addiction. Local mental health agencies are 
working to develop a successful treatment program for 
methamphetamine addicts. Current meth addicts have a recovery 
rate of less than 10 percent. Mental health resources will 
continue to deplete until a successful treatment program is 
developed to treat the long-term effects of meth addiction.
    Mr. Souder. Mr. Byers, you are quite a bit over your five. 
Could you just go to your recommendations? And your whole 
statement will be included in the record.
    Mr. Byers. Absolutely. The recommendations that I would 
like to make are: No. 1, restrict the sale of Pseudoephedrine 
products nationally; tighten the Mexican border to help prevent 
meth trafficking from Mexico; address the Pseudoephedrine 
market in Canada and China; longer prison sentences for meth 
traffickers and meth producers and anyone who involves children 
in the trade or allows children to reside in a home used for 
meth production; continue to prosecute meth manufacturers at 
the Federal court system; longer sentences are beneficial to 
local law enforcement; continue funding interstate drug 
interdiction teams; and work with mental health care providers 
to develop a better recovery and treatment plan.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Byers follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.073
    
    [GRAPHIC] [TIFF OMITTED] T4946.074
    
    [GRAPHIC] [TIFF OMITTED] T4946.075
    
    Mr. Souder. Thank you. Now you haven't just watched it; you 
have been on C-SPAN.
    Ms. Deporto.

                  STATEMENT OF SYLVIA DEPORTO

    Ms. Deporto. Thank you ladies and gentlemen.
    I am Sylvia Deporto. I am the deputy director for 
children's services in Riverside County, CA. I began with the 
department in 1992 as a social worker, and methamphetamine was 
the No. 1 problem of substance abuse for child welfare at that 
time. I sit before you today on July 26, 2005, and I tell you 
that methamphetamine is the No. 1 substance abuse problem in 
Riverside, CA, for Child Welfare Services. It is an epidemic.
    The Riverside County Drug Endangered Children Program is 
one of the most innovative multi-disciplinary projects to date. 
The Drug Endangered Children Program utilizes the Sheriff's 
Department, Child Protective Services, the District Attorney's 
Office, public health, nursing, medical personnel, courts, 
HazMat and environmental health to intervene on behalf of 
children who have been exposed to drug use, sales and 
manufacturing environments.
    Drug endangered children are found living in about 45 
percent of home-based methamphetamine labs covered within 
Riverside County. That figure causes great concern because one 
in every six illicit labs is discovered as the result of fire 
or explosion. The Children's Research Center Data on Safety 
Assessments for California Counties indicates that 
approximately 50 percent of children in Riverside County are 
removed from their parents by child welfare involve parental 
substance abuse.
    In Riverside County, we have four law enforcement drug 
teams. Each of these teams has at least one social worker 
assigned to them full-time to assist with drug labs. Social 
workers must take the children removed from the drug labs 
directly to a hospital for evaluation and testing as part of 
the DEC program. The social worker may wait in an emergency 
room with the children for up to 6 hours. Many of these 
children have been neglected, demonstrating signs of 
malnourishment, lack of physical and dental hygiene, physical 
and/or sexual abuse and test positive for chemicals due to 
exposure.
    Riverside County recently purchased four Community Resource 
Vehicles specifically for use by law enforcement and child 
welfare at drug labs. Due to the chemical exposure, the 
children need to be cleaned with water immediately, and in the 
past, this has occurred outside with a hose. The community 
resource vehicle will provide a place for the child to be 
cleaned in a shower and provided with clean clothes and fed 
while the social worker interviews them.
    Children who are placed in the custody of Child Welfare 
Services require continued medical followup and evaluation. The 
social workers must ensure that these children are tested 
regularly for their chemical levels, and this information must 
be recorded in their health history. Many of these children 
have not attended school on a regular basis and must be 
provided with special education services to bring them up to 
grade level. Both foster caregivers and educators struggle with 
a multitude of behavioral problems and learning disabilities 
from these children due to prenatal drug exposure to 
methamphetamine. Riverside County has initiated several drug 
courts, in superior, dependency, delinquency and family law, in 
an attempt to address the severity of our drug problem, its 
effect on the multiple agencies and, most importantly, its 
effect on our children.
    I remember a case when I was still a field worker. The 
parents were methamphetamine abusers and were hiding from CPS 
with their children. They were located living in a very rural 
part of Riverside County in a small travel trailer. As we were 
taking the children, the parents were attempting to flee. The 
trailer was filthy, and the smell was overwhelming. At the 
office, the children stated to me that they used the bathroom 
outside just like the dogs do. They washed in the hose, and it 
was very, very cold. And they dumpster dived for their dinner 
every night. Children should not know a life like this.
    I urge you to take notice of the severity of our Nation's 
problem with methamphetamine abuse. There are severe long-term 
consequences for our Nation and extreme costs. If you consider 
what we are currently spending on specialized law enforcement 
teams, hazardous materials teams, environmental clean up, child 
welfare and foster care, medical and educational costs to 
address the needs of these children, the dollars are 
overwhelming. We should put those dollars into prevention and 
treatment instead of in clean up.
    I thank you today for the opportunity to share this 
information with you.
    [The prepared statement of Ms. Deporto follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.076
    
    Mr. Souder. Thank you very much.
    Ms. Dunn.

                    STATEMENT OF BETSY DUNN

    Ms. Dunn. Chairman Souder and distinguished members of the 
subcommittee, I thank you for inviting me here to testify.
    My name is Betsy Dunn. I am a Child Protective Services 
case manager at the Tennessee Department of Children's 
Services, and I am here to talk to you today about the worst 
form of child endangerment that I have ever seen. It happens 
when methamphetamine takes over a family's life and threatens 
to destroy everything, especially the children who have the 
misfortune of living beneath the same roof as their drug-
addicted parents. I want to talk about some of the most 
pressing child welfare issues I face.
    We need to offer collective support for these children. 
They need counseling that addresses their abandonment and 
attachment disorders. Our caseworkers and law enforcement 
officers need specialized training in dealing with these 
situations. Right now, we just don't have enough to offer all 
the help we need to try to get these children's lives back on 
track.
    I live on the Cumberland Plateau, the highlands where 
middle and east Tennessee meet. It is beautiful country, and it 
has long been my home. Cookville is a growing city, but it 
still feels like a small town. And for the past 16 years, I 
have been a Child Protective Services case worker for the State 
of Tennessee trying to help some of Putnam County's neediest 
and most vulnerable children.
    But the meth children are far different from anything I 
have ever seen before. The pressures on the State Child Welfare 
System are enormous in part because of the surge in meth-
related custody cases in the past 5 years and, to a large 
degree, because of the way the addiction devastates the long-
term well-being of the children who come from these homes. 
These are potentially life threatening environments to which 
these children are being exposed. The adults who are supposed 
to be these children's caretakers have become totally consumed 
by this drug and have turned their backs on these youngsters. 
It is not uncommon for us to see, say, a sibling group of three 
with the eldest child being 7 years of age, that 7-year-old 
becomes not only the primary caretaker for his or her siblings 
but the parents as well. These children's worlds have been 
totally destroyed. They endure physical and sexual abuse. These 
children are living in a world where they don't belong.
    In addition to finding better ways to crack down on the 
specific ravages of methamphetamine-related child abuse, we 
have to recognize that these children require intensive and 
long-term help once we get them out of these dangerous 
environments. We have some good news, though. Now local, State 
and Federal law enforcement officers, prosecutors and child 
welfare experts routinely work together to combat this problem. 
Last year, Tennessee Governor Phil Bredesen assembled a 
methamphetamine task force that helped identify crucial 
legislation that Tennessee needed to fight the epidemic in our 
State. The Department of Children Services Commissioner Viola 
Miller asked me to serve on this task force. The meth problems 
in Tennessee, after all, are highly concentrated in my part of 
the State, so I see this firsthand.
    Thanks to new restrictions on the display and sale of 
ephedrine and Pseudoephedrine, I am happy to say that it looks 
like meth lab busts are going down in my part of the State. But 
that is not to say that we still don't have a fearsome problem 
on our hands.
    And the most heart-breaking part of it is the children who 
live in these homes with parents who are addicts. These aren't 
like other abuse and neglect cases that we see. When a child is 
taken out of a meth environment, this child loses everything 
that is familiar to them. They lose their clothes, their toys, 
everything because it is all considered contaminated, and that 
is what makes this so tragic. These children lose everything. 
They have lost their parents, and now they have to start over. 
In many cases, these children have raised themselves. There is 
a dull affect in their expression, and there is not a lot of 
emotion. There hasn't been any consistency in their lives 
because they live in environments that are deplorable. Some of 
these children don't even sleep in beds. They sleep on the 
floor. They have terrible hygiene. Their teeth are rotten, and 
no one is taking care of them.
    When the Department of Children's Services caseworkers 
remove them from these conditions, they become our main 
responsibility as we try to address their physical, social and 
emotional difficulties. We struggle to find the services to 
address their needs. We do the best we can, but we just don't 
have enough. The majority of the children that we remove and 
place into custody are now because of methamphetamine-related 
issues. The foster homes have been totally flooded with these 
children. Therefore, if you remove a child for physical abuse 
or sexual abuse, you are going to have a hard time finding a 
placement because of all the other placements being taken due 
to methamphetamine.
    In closing, I would like to tell you about a case that I 
worked approximately a year ago, and the child's name is 
Jeffrey. He was a 17-year-old mentally limited child. He was 
removed out of a methamphetamine lab. When interviewed by me, 
Jeffrey was able to tell me that his mother was doing bad stuff 
in the home, and it made him sick. He was able to describe step 
by step how to make methamphetamine. The most difficult part of 
this case was the fact that Jeffrey had just undergone a liver 
transplant. But I am happy to report that Jeffrey turned 18 
years of age last year. In fact, our birthdays are on the same 
day, and we celebrated our birthdays together. We were able to 
save Jeffrey, but there are so many other Jeffrey's out there 
that we just don't know about. Thank you.
    [The prepared statement of Ms. Dunn follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.077
    
    [GRAPHIC] [TIFF OMITTED] T4946.078
    
    [GRAPHIC] [TIFF OMITTED] T4946.079
    
    [GRAPHIC] [TIFF OMITTED] T4946.080
    
    [GRAPHIC] [TIFF OMITTED] T4946.081
    
    Mr. Souder. Thank you for your testimony. Thank you for 
your concern for the kids.
    Chief Owens.

                  STATEMENT OF DONALD D. OWENS

    Chief Owens. Chairman Souder, Ranking Member Cummings, and 
distinguished members of the subcommittee, I thank you for 
inviting me here today to discuss the challenges and problems 
related to methamphetamine that we have encountered in 
Titusville, PA.
    My name is Donald Owens, and I am the chief of police for 
the Titusville Police Department. I have been with the 
department for 22 years and have been chief for the past 5 
years. In my years of service, dealing with methamphetamine in 
my community has been the greatest challenge that I have faced. 
Prior to 2001, few people in Titusville had ever heard of 
methamphetamine. Things were about to change however. That 
year, the first major meth ring in Titusville was busted. The 
individual thought to be responsible for bringing meth to the 
region was arrested. Meth purchased from him during the 
investigation was reported to be some of the purest that the 
lab had ever found. In part, this probably helped build 
Titusville's reputation as the meth capital of western 
Pennsylvania. It was reported that individuals from as far as 
300 miles were coming to Titusville to get this new drug.
    In 2001, when we first realized we had a problem, four labs 
were seized in the region. By 2004, the number of labs seized 
had grown to 69, which was over half of the total number of 
labs seized in Pennsylvania. Over a third of the 69 labs in the 
region were directly tied to Titusville. In April 2001, nearly 
60 individuals from the Titusville area had been arrested on 
meth-related charges.
    Looking at statistics on labs seized or arrests made does 
not tell you the whole story how methamphetamine affects a 
community. It doesn't tell you about the strain placed on the 
police. It doesn't tell you about the devastating effects of 
this drug to a community. The methamphetamine epidemic in our 
community presents many challenges to police. Some of the more 
serious concerns are manpower, money and increasing crime 
rates. Since 2001, the number of overtime hours put in by 
officers on the drug task force has more than tripled. When 
seeking grants to help our overtime costs, hiring officers or 
purchasing equipment, we find that, in the post-September 11th 
America, funding is geared toward larger cities or in dealing 
with threats from foreign terrorists. I would never say that 
foreign terrorists do not pose a serious threat to our country. 
But small town rural America is dealing with its own form of 
terrorism, the methamphetamine epidemic, and it is crying for 
help.
    The methamphetamine epidemic has created other manpower 
issues as well. The Titusville Police Department has always had 
a very strong community policing policy which included 
conducting walk-and-talks through the neighborhoods in the 
downtown areas and presenting community education programs. 
Unfortunately, since 2003, our community policing efforts have 
been centered entirely around the methamphetamine issue. In 
2003, we undertook a community education program to make 
residents aware of the seriousness of the meth problem. And we 
never anticipated the overwhelming response our education 
efforts generated. The number of tips received has 
significantly increased. We could assign one officer to spend 
their entire 40-hour work week doing nothing but keeping up 
with intelligence reports and following up on leads.
    The problem is that we don't have the manpower to focus 
solely on meth. We do have other crimes that we must 
investigate as well. In 2001, while the State's violent crime 
rate was going down, Titusville's violent crime rate doubled. 
Serious crimes such as burglaries and assaults have increased. 
We are finding that many of these more serious crimes are 
related to methamphetamine.
    The Titusville Redevelopment Authority has worked hard to 
bring businesses into town but has expressed their concern that 
the methamphetamine problem may have businesses hesitate to 
move to Titusville. Without economic growth, the city may have 
to eventually cut back on services, including police. Taxpayers 
in the city are not going to be able to bear the burden as more 
houses are removed from the tax rolls because they have been 
condemned or torn down due to meth.
    The conditions in meth houses are deplorable. We were once 
told by a narcotics agent who had worked in inner city 
Philadelphia and had entered some of the worst slums in some of 
the worst neighborhoods that he had never seen anything as bad 
as some of the living conditions in meth houses in the 
Titusville area.
    We have been working with Congressman John Peterson to 
address the methamphetamine problem and develop strategies to 
deal with it as it moves across the State. Congressman Peterson 
has been instrumental in bringing agencies across our State 
together to address this problem, and I would like to take this 
time to thank Congressman Peterson for all of his help.
    What are the solutions to this problem? I don't think there 
is going to be a quick fix to this problem any time in the near 
future. This drug has a stronghold on rural America. Additional 
financial resources on the State and Federal level are needed. 
I would certainly encourage Congress to continue funding 
programs such as the COPS program through which departments 
like Titusville may be able to hire additional officers to 
combat the methamphetamine problem in our region.
    In order to truly understand what methamphetamine does to a 
community, just look how it has changed Titusville's 
reputation. Titusville has been known as the birthplace of the 
oil industry since the discovery of oil in 1859. The city has 
always been well respected throughout the region as a good 
place to live. Titusville is now better known as the meth 
capital of western Pennsylvania and has become the brunt of 
many jokes. In an Associated Press article talking about how 
meth is becoming a major problem in Hawaii, Titusville was 
mentioned as an example of meth's effects on rural America.
    Rural America needs help. Rural America needs opportunities 
like this to express our concerns to you, our Representatives 
in Congress. Rural America needs someone to listen and to take 
action before the methamphetamine epidemic completely swallows 
us up.
    I thank you for listening to me today, and I thank you 
again for the opportunity to speak here. And if you have any 
questions, I would be happy to answer them.
    [The prepared statement of Chief Owens follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.082
    
    [GRAPHIC] [TIFF OMITTED] T4946.083
    
    [GRAPHIC] [TIFF OMITTED] T4946.084
    
    [GRAPHIC] [TIFF OMITTED] T4946.085
    
    [GRAPHIC] [TIFF OMITTED] T4946.086
    
    [GRAPHIC] [TIFF OMITTED] T4946.087
    
    [GRAPHIC] [TIFF OMITTED] T4946.088
    
    [GRAPHIC] [TIFF OMITTED] T4946.089
    
    [GRAPHIC] [TIFF OMITTED] T4946.090
    
    [GRAPHIC] [TIFF OMITTED] T4946.091
    
    [GRAPHIC] [TIFF OMITTED] T4946.092
    
    [GRAPHIC] [TIFF OMITTED] T4946.093
    
    [GRAPHIC] [TIFF OMITTED] T4946.094
    
    [GRAPHIC] [TIFF OMITTED] T4946.095
    
    Mr. Souder. Thank you.
    And if I can take this opportunity before we hear our 
clean-up batter witness, Sheriff Shook, that I appreciate the 
specifics you have. If you all have additional information, as 
with each hearing, we have a hearing book associated with it, 
but as we try to pull together a meth report, these individual 
cases are helpful if you want to add others as well. And also 
if there is a way we could get some original copies of the 
pictures you have in this document if others have it as well, 
it will make any report we put together more effective.
    Sheriff Shook.

                    STATEMENT OF MARK SHOOK

    Mr. Shook. Chairman Souder, distinguished members of this 
committee, methamphetamine was something we heard about but 
believed was a far away problem, a California problem.
    In the spring of 2002, a 312-square-mile semi-rural western 
North Carolina county with a population of 48,000 full-time 
residents was seriously impacted by the scourge of 
methamphetamine, and we were not prepared.
    I am the sheriff of Watauga County, NC. I have been a law 
enforcement officer for nearly 20 years, and in this time, I 
have worked in many facets of local law enforcement. I have 
been a patrol officer, a detective and now sheriff. During my 
years of service, I have investigated murders, rapes, property 
crimes and even automobile crashes. Each of these significantly 
effect the people involved. The effects I've seen in our county 
from methamphetamine is not localized like these other crimes. 
Methamphetamine impacts in some way everyone around it.
    Methamphetamine has penetrated our communities like the 
disease that it is. It is our families that are hardest hit. 
Methamphetamine addicts do not hold jobs. They do not 
contribute to our society. These individuals are users, plain 
and simple. They use our community's resources. They steal from 
their family members. They break into their neighbors' houses. 
They become physically aggressive to those around them, often 
to the people they love, even their children. Finally, they rob 
and kill because of perceived needs and paranoia.
    So many times we have seen firsthand the hardest hit 
victims are the defenseless, the young children who are forced 
to live in conditions that are appalling by any standard. Time 
and again, we have raided active clandestine methamphetamine 
labs and found children living in those contaminated 
structures. We have seen baby bottles soaking in sinks full of 
chemical waste from methamphetamine production. I have taken 
teenagers from their parents' methamphetamine lab and found 
coffee filters with wet meth in their pockets, fresh from a 
methamphetamine cook. I spoke with a 6-year-old boy who lived 
with his mother and father in a meth lab. The 6-year old boy 
told me step by step the process his mom and dad used to 
manufacture meth, step by step. This child's parents had used 
him many times to assist them in cooking methamphetamine.
    In January of this year, two small children were abducted 
at gunpoint from a foster home in Wautaga County by their 
biological parents. The children were in protective custody 
because their parents were operating a meth lab in their house. 
These methamphetamine addicts found out where the children were 
housed, got a pistol, drove there and held the foster family at 
gunpoint while they took the children. Four days, an AMBER 
alert and one car chase later, we recovered the children, 
thankfully unharmed, in our neighboring State of Virginia. The 
parents were immediately arrested and searched. Again, they 
were carrying methamphetamine. The children are now back in 
foster care, and the parents are in jail awaiting trial on 
kidnapping, armed robbery and methamphetamine manufacturing 
charges.
    In our small county we have had methamphetamine-related 
homicide, robberies and sexual offenses. In a county where 
murders are few and far between, most of the murders that have 
occurred in our county recently have had various ties to 
methamphetamine. Houses, mobile homes and apartments have 
burned due to the flammability and toxicity of the chemical 
mixtures people use while trying to manufacture 
methamphetamine. Many of these amateur meth cooks have been 
badly burned while trying to cook methamphetamine.
    Clandestine meth labs represent the single greatest threat 
to the safety of emergency responders in our country. I have 
officers in my department that have been injured investigating 
meth labs. Six volunteer firefighters from one department in 
our county have been injured, one seriously and permanently, 
while working to extinguish meth-lab-related fires. These 
injuries are not from the fire itself nor a fall. These 
injuries are from the toxic fumes produced by the 
methamphetamine cooking process. We have been lucky in Wautaga 
County, NC. None of our responders have been killed. But around 
the country, firefighters, paramedics, law enforcement officers 
and many others in the public safety and public service 
industry are seriously injured or killed every year from the 
on-the-job exposure to these labs.
    I was elected sheriff in 2002, and before my election, when 
I was detective at the sheriff's office in the year before I 
took office, I noticed a trend developing in cases I was 
investigating. I kept hearing the word meth. I was vaguely 
aware of methamphetamine from training and word of mouth, but I 
really didn't know much about it. What I did know was that meth 
was being identified with more and more criminal activity. A 
murder I worked earlier in the year turned out to be a meth lab 
dispute. Suspects in assault cases were citing methamphetamine 
as a contributing factor in their behavior. I came to 
understand that the community was suddenly awash in 
methamphetamine. I saw firsthand the damage resulting from 
people using this drug.
    I knew we had to take action, and we did. We began an 
aggressive campaign against methamphetamine and people 
producing it. Some 80 meth labs later, officers in my 
department can point to tremendous success. We have been 
instrumental in passage of State laws that provide enhanced 
punishment for meth producers. We have made many arrests that 
lead to our serious meth producers receiving sentences ranging 
from State probation to more than 40 years in Federal prison. 
It is now difficult to find a clearcut meth lab in our county. 
There are still a few in operation, and we are closing in on 
those. We do not find dump sites where lab-related materials 
are illegally dumped. But these have declined also.
    We have worked hard to deter people from manufacturing meth 
and to make it more difficult to get the necessary materials. 
We have worked to educate our citizens, and we have developed 
relationships with our retailers. We established a three-county 
meth task force dedicated to the investigation and seizure of 
meth labs and arresting those responsible for their operation. 
We are continually fighting the methamphetamine epidemic.
    Even with these efforts and the success that we have had, 
the use of methamphetamine is still prevalent in our area. We 
believe the majority of it is being brought in from western 
States and Mexico. We are fighting a battle working every day 
to rid our country of methamphetamine, and we are doing a good 
job. But we need help. We need laws passed controlling the sale 
of Pseudoephedrine, a necessary ingredient for meth production. 
States such as Oklahoma have passed legislation making it very 
difficult for meth producers to produce or steal large amounts 
of Pseudoephedrine.
    Laws controlling the over-the-counter sale of 
Pseudoephedrine have had a significant impact and have 
contributed to a substantial drop in meth production in the 
States passing them. North Carolina is considering similar laws 
but has not adopted them as of yet. The passage of Federal 
legislation controlling sales of Pseudoephedrine will have the 
single biggest impact on illicit meth producers.
    One of the primary reasons for our successes are the 
partnerships we have been able to develop. Gretchen Shappert 
and Karen Marston of the western district of North Carolina 
U.S. Attorneys Office; John Emerson and Walt Thrower from the 
DEA; Mark Triplett and David Schauble from the ATF; Van Shaw, 
Rick Hetzel and David Call of the North Carolina State Bureau 
of Investigation; and Charlie Byrd of the Wautaga County 
District Attorney's office, these are the names of some of the 
dozens of law enforcement officers and agents and prosecutors 
that have come to our small county and worked with us, educated 
us and stood beside us seizing labs and putting these criminals 
in prison.
    Clandestine meth laboratories have moved east for some 
years now and have made it all the way across the country. They 
are a local problem, a State problem and now most of all a 
national problem. I anticipate that all of us in this room 
today will be discussing methamphetamine for some time to come. 
Thank you for your time and service to the citizens of the 
United States of America.
    [The prepared statement of Mr. Shook follows:]

    [GRAPHIC] [TIFF OMITTED] T4946.096
    
    [GRAPHIC] [TIFF OMITTED] T4946.097
    
    [GRAPHIC] [TIFF OMITTED] T4946.098
    
    Mr. Souder. Thank you.
    I am going to yield to the committee vice chairman, Mr. 
McHenry, to start the questioning. And I'll be back in just a 
couple of minutes.
    Mr. McHenry [presiding]. Thank you, Mr. Chairman.
    At this time, I would like to recognize the ranking member, 
Mr. Cummings, for his round of questions.
    Mr. Cummings. Thank you very much.
    First of all, let me say to all of you that we appreciate 
what you do every day. This problem is one that I think kind of 
snuck up on a lot of folks. And you know, as I listen to your 
testimony and listen to some of it, we have a TV in the back 
room there. I heard all of it. It strikes me that you are 
facing a problem that is much bigger than a lot of Americans 
can even imagine. And you need help.
    When you were speaking, Ms. Dunn, I mean about the kids, 
and others of you have too, it just struck me that these are 
human beings. And so you get stuck in a situation where you are 
trying to take care of these children, and I guess you have but 
so many resources or alternatives, and yet and still I am sure 
you go home at night just, you probably can barely eat dinner 
trying to figure out, well, what is going to happen to these 
children. And in that vein, I just wanted to know, what is the 
most important factor that needs to be addressed when trying to 
reunite families that have been pulled apart as a result of 
meth use in the home? I mean, what is the difficult part of 
putting the family back together?
    Ms. Dunn.
    Ms. Dunn. Yes, sir. I think the most difficult part in 
reunifying these families, in our area--and I can only speak 
for Tennessee--we don't have any drug treatment. We have 
intensive outpatient. Sir, that is not going to work. That is 
something that we are in desperate need of, some type of 
treatment. I mean, a parent can go to intensive outpatient 
treatment for maybe 90 days, but that is not going to cut it. 
These parents are addicted to a drug that is stronger than 
anything I have ever seen. And I have been in this field for a 
long time, and I have seen a lot of drugs. But I have never 
seen a drug that could make a parent turn their back on their 
child, never.
    Mr. Cummings. Chief Byers, you were talking about C-SPAN. 
You know, you're on C-SPAN right now. Congratulations.
    Mr. Byers. Thank you.
    Mr. Cummings. The clean-up piece, that is a--we have heard 
a lot of testimony in other hearings about clean-up and how 
much time it takes and resources. How many people on your 
force?
    Mr. Byers. Sir, we have a total of 60 sworn officers.
    Mr. Cummings. So I guess when you have to clean up, there 
is a problem.
    Mr. Byers. There is a big problem. And the only clean-up 
crews that we have who are certified to go into the labs are in 
Georgia and Tennessee. So one problem we run into is, when we 
discover a lab, it might be 24 or 48 hours before a chemist can 
come in and check all the chemicals. A chemist has to come 
first from the State bureau and check the lab, and then the 
clean-up crew comes in, which is paid for by the Drug 
Enforcement Administration. But still, it might be 2 days that 
we have an officer or even two officers assigned to that lab, 
and nothing can go on. So we are using manpower just to guard 
the lab, if you will. And the danger continues as the water, 
the environment continues to be plagued with that while we were 
waiting on a clean-up crew, and that is just--we are thankful 
that they are there. And we are thankful the Federal Government 
is paying for it, because we certainly couldn't afford the 
clean up. We couldn't afford it whatsoever. But it is very 
time-consuming and maybe 2 days before the lab can be cleaned 
up, tying up our officers as well as Federal and State 
officers.
    Mr. Cummings. How does that affect your other efforts with 
regard to law enforcement? I mean, you know, one of the things 
that--I practiced law for many years, and I think that when 
people see, the criminal folk, when they see that there is an 
opportunity to do their criminal act, then they take advantage 
of it. And I was just wondering, you know, does that send a 
message, now? They know you've got to deal with that kind of 
issue. They know you've got a limited force. I mean, have you 
seen problems in other areas, that is, criminal activity?
    Mr. Buyer. Absolutely, Congressman. In 2004, when our SBI 
and our department responded to 43 labs in Rutherford County, 
crime was up double digits in larcenies, property crimes as a 
whole, simple assaults and domestic violence, and all those are 
directly related to meth and meth manufacturing. So, yes, we 
have seen a big swing.
    Mr. Cummings. How about you, Chief Owens?
    Chief Owens. They would pretty much follow along the same 
lines. Any time we get involved with the methamphetamine, you 
see additional crimes being committed because of the drug 
itself. And it is, the deplorable conditions that these people 
are living in is conducive to additional problems for children 
and youth, too.
    Mr. Cummings. What would you all--my time has run out, but, 
what would you all want to see us do as a Federal Government to 
help you? I mean, if you could just answer that in just a very, 
very few words. I mean, whoever, some of you may not even want 
to answer that. But I am just curious.
    Ms. Young. Prevention. Mass prevention efforts. The public 
needs to be educated about this issue. We need to educate 
pregnant women about use during pregnancy for methamphetamine 
as well as all of the other substances that affect their 
children. We need to make sure that obstetricians know about 
this issue and that they are screening effectively and 
providing intervention so that we can prevent that damage. The 
public doesn't, as many Members have already said today, may 
not be really recognizing what the long-term consequences are, 
and mass education about this issue really needs to happen with 
a doubling of our prevention efforts.
    Ms. Brown. NACo actually supports four of the bills that 
are circulating through the congressional levels now; some that 
deal with clean up, some that deal with Pseudoephedrine 
restriction. And we want you to know that we really appreciate 
what you have been doing. I think that the direction of moving 
in a comprehensive way is the only way that I think we can 
address this problem and maybe get to a place where we feel 
like we have achieved a goal at the end.
    And I think everyone who has testified has said that all 
levels have to be involved; not levels of government but all 
departments within counties that are dealing with it, all 
departments within cities, that the Social Service component 
needs to be side by side with law enforcement, and that there 
needs to be this understanding and that treatment is a valuable 
component of that. So we would be supportive and we have a 
president this year that is from Umatilla County, OR, who has 
recognized the importance of methamphetamine and raising that 
awareness and has made it his initiative. So you will hear much 
from us in NACo about the need to look at this from all 
different sectors with a comprehensive approach I think is the 
best.
    Ms. Baker. If I may, I would agree with the education piece 
and also sort of the spirit of, all hands on deck. I mean, the 
whole piece around collaboration with law enforcement and 
others. It is real easy to sort of be tempted into thinking 
that foster care is a premium solution, and you know, children 
need to be safe and have permanency and well being in their 
lives. And without treatment, without the education and 
prevention piece and treatment, we may be creating another 
generation of youngsters who would be well cared for by the 
State, I would hope, but who deserve permanency and connections 
with their families.
    Mr. Cummings. Mr. Chairman, if I may I just have one 
question, one more question that I think may be helpful to some 
police chiefs who are watching this right now. Just recently, 
in Maryland, we had a situation--it has not been a big problem 
in Maryland. But we recently, I mean within the last 2 weeks, 
had a situation in a rural section where a lab was discovered. 
And I am just wondering, when you were talking, Chief Owens and 
perhaps you can help us, Sheriff Shook and others, when, if you 
had--looking back, when you first saw it, is there, are there 
some things that you wish you had done and maybe just kind of--
you know, I am not saying you underestimated, I don't know what 
happened--but I mean, in other words, that you wish you had 
done at that moment, as soon as you, the moment you saw 
something happening and that, if you were giving advice to 
other chiefs, what would you say? You understand the question.
    Chief Owens. I do. I think one of the things we did is we 
did a community presentation. We went around the area with an 
educational program, a Power Point program, went to all the 
outlying areas. And we are very rural in nature. Went to the 
fire departments and talked with the EMS and fire departments 
and groups, and we also took it into our schools. We talked to 
them at the school level. And I think when we started showing 
them some of the pictures that some of the--that came across 
big with them. I mean, sometimes, like they say, a picture, you 
know, paints 1,000 words. But I am going to tell you, that is 
pretty devastating when you start looking at some of those 
pictures that were up here on the board today, and I think that 
gets people's attention, so I do believe education is part of 
it.
    And I think you need to act as quickly as you possibly can 
when you realize that you have a problem, and fortunately, we 
have done that. But unfortunately, this epidemic is so 
sweeping, and it takes no time at all before it is 
overwhelming. It happens that quick. And it is real trouble for 
people trying to deal with budgets and trying to deal with the 
problem as well.
    Mr. Shook. When we started finding our problem, the first 
thing we did was get the education for our law enforcement, our 
emergency services, our health departments, our Social 
Services. We also made a pact with our Chamber of Commerce and 
our retail establishments and educating them, the hotel owners 
associations, the renters, because it is a community problem. 
It is not a law enforcement problem. It is a community problem, 
and everyone in that community has to deal with it. That is 
where I am proud of our county, because we have banded 
together, and we have made a difference in our county. But I 
think education working hand in hand and limiting the 
availability of Pseudoephedrine products will take care of the 
meth problem because, without Pseudoephedrine, there is no 
meth.
    Mr. Cummings. OK. Thank you all.
    Mr. McHenry. Thank you, Mr. Cummings.
    And certainly, this is a bipartisan issue. I mean, the 
concern that we have as a committee on this epidemic of 
methamphetamine across our Nation, it is very serious, and this 
Congress takes our job seriously in making sure that we have 
the laws and everything, the resources available to combat this 
problem. The interesting thing about this panel is that none of 
you are from Washington, DC, but surprisingly, you make sense. 
Wait a second. I guess those two things actually go together. 
No, it is wonderful that we actually have these are on the 
front lines here today to give us recommendations. What is so 
surprising about the eight-member panel that we have here is 
that you have twice as many recommendations, no actually 
probably more like 100 percent more recommendations than the 
first panel did. And I think it is wonderful that you all are 
here to convey that.
    My questions for my local law enforcement leader, Mr. 
Byers, you spoke about Rutherford County. And the meth problem 
is touching Rutherford County like it is many rural counties 
across America. We are not exempt or immune to it. You spoke 
about the economic issues in your opening statement, that you 
and local law enforcement have to deal with. Can you go more 
into detail about the economic impact?
    Mr. Byers. Yes, Mr. Chairman.
    The money is being spent in Rutherford County. Our Medicaid 
budget, the local budget portion for Medicaid in Rutherford 
County last year increased $700,000. That doesn't sound like a 
lot in Washington dollars, but I'll assure you, in Rutherford 
County dollars, that is a lot of money. And most of that money 
went to those who are afflicted with methamphetamine and 
methamphetamine addiction. We are seeing a tremendous amount of 
money spent in our local detention facility. We have a 210-
person detention facility, and right now, our budget is at $1.7 
million for that facility. And a lot of that money is going to 
health care. The biggest spending that we are going to see with 
methamphetamine and of course the worst thing is the loss of 
life of course. That is the No. 1. But the big spending is 
going to come in the future with health care costs for liver 
and kidney failure, for diabetes, for heart attacks. And we are 
seeing those things in our detention facility now. So the one 
thing that is rising constantly in law enforcement in 
Rutherford County is the medical expenses we have at our 210-
man facility, our detention facility. That is going to continue 
to grow. We have inmates who are suffering from everything from 
diabetes as a result of meth abuse to heart failure to kidney 
and liver failure to HIV. And that is going to continue not 
only in Rutherford County but with the Department of 
Corrections in the Federal prison system. We might as well get 
ready to spend a fortune of money for health care.
    Mr. McHenry. Well, this is certainly an issue. And in terms 
of local law enforcement, the resources you need, are you 
getting those, the funding you need to meet the demand that 
this is placing on your people?
    Mr. Byers. Congressman Cummings asked earlier about what 
would we do, the one thing. And I think avoiding the head-in-
the-sand mentality, if you will. You know, it was in 
California. It started east. Oklahoma. Then, you know, people 
in North Carolina said, it's never going to affect North 
Carolina. It will never make it to North Carolina. Well, it 
made it to North Carolina. We in the west were fighting it. We 
were fighting it hard. And we had counties in eastern North 
Carolina who were saying, it's not a problem. We don't have 
methamphetamine. Charlotte-Mecklenburg, had their first meth 
lab last week, their first for this year. So for Charlotte-
Mecklenburg and the chief there, it may not be a tremendous 
problem, but I promise you it will be. And resources in law 
enforcement, we have had to move people from other positions to 
narcotics. Our narcotics division has doubled in size based on 
methamphetamines and will continue to grow. And we are asking 
for some additional funding.
    But in a county with 9 percent unemployment, it's hard to 
ask that county commissioner for a lot of money. He gives you a 
long look when you ask for tax dollars when you've got 9 
percent unemployment. So it is more than just local issues, for 
local law enforcement dollars, not a lot of money being seized.
    When we were in the cocaine business--and not that we are 
not in it still, we made a lot of arrests for cocaine. I know 
you were mentioning in Baltimore. But we would seize homes and 
cars because it was a seller's market. We would get a little 
money come back into law enforcement to help offset some of the 
expenses. With meth addiction, they have nothing. They're 
broke. They don't have a dime. They're stealing lawnmowers and 
chainsaws to buy the ingredients to make the meth. So we are 
not seizing any property. We are not seizing homes, cars. All 
we are doing is spending money. So there is nothing coming back 
to the coffers, and we are standing there before our 
commissioners and before our State legislators and before our 
Congressmen with our hands out asking for help. So it is 
affecting us tremendously.
    Mr. McHenry. What is the single best thing we can do in 
Congress to help your fight? If you could touch on that, then 
we can go to Chief Owens and Sheriff Shook.
    Mr. Byers. That's a tough one for me because I have really 
got a couple or three. But the first thing is to ban or 
restrict--ban is not a good word--restrict the sale of 
Pseudoephedrine products. And it can't be just State by State, 
because, again, the people, the cooks in Rutherford County are 
going to drive 15 minutes and steal or buy all they want in 
South Carolina. So it needs to be a national restriction of the 
sale of Pseudoephedrine products. And that would be No. 1.
    And then I would have to say, looking at the borders of 
Canada and Mexico, and Ice is beginning. We are going to change 
in Rutherford County from a manufacturing base where we have 
our cooks that go out and buy the ingredients, make the meth. 
Now we have a lot of addicts running around Rutherford County; 
6 percent recovery rate, so that is going to continue to grow. 
And now that the demand is there, it's supply side economics. 
The demand is there. The Ice from Mexico will hit the streets 
wide open. Congressman, you know what that's like in Baltimore 
as far as dealing with other drugs. So we need to really look 
hard at what's coming in from Mexico and the Pseudoephedrine 
coming from Canada.
    Mr. McHenry. Thank you.
    Chief Owens.
    Chief Owens. I certainly agree with Chief Deputy Byers. One 
of our problems is that our meth is not being imported. It is 
being made locally. And that is one of our biggest problems. 
What we need is manpower and money and to address the problem 
from a law enforcement perspective. And that is where our 
issues are.
    Mr. McHenry. Sheriff Shook.
    Mr. Shook. I think limiting the sale of Pseudoephedrine. We 
also need manpower. Our State Bureau of Investigation is 
understaffed. Their lab is unstaffed, their chemists. We need 
more chemists because most of the SBI lab chemists that are 
doing the DNA testing and other testing in the lab settings are 
having to leave those laboratories and come out into the field 
to process meth labs. So that is putting backlogs in murder 
cases and rape cases and other law enforcement problems. So we 
need manpower, and we need some restrictions on the main 
ingredient that causes this problem.
    Mr. McHenry. Thank you all so much for your testimony. I 
saw a number of head noddings when we came to Pseudoephedrine 
and certainly the universal issue here in the base of all that 
we are talking about. So thank you so much for your testimony.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    And I just want to say to the panel that we are very, very 
appreciative that you came today to not open my eyes but open 
our eyes as to the gravity of this problem. And it was said 
from the Chair that there is no one here from D.C.; well, thank 
goodness you came in from across the country just to show the 
expanse of this problem.
    I want to address my comments to Valerie Brown. And thank 
you so much. I am personally involved in a case as we speak. 
And I was listening to your recommendations as to what you need 
to fight this problem. You are not helped by the fact that I 
think America is a drug culture. All you have to do is put on 
the TV, turn on the radio or read the paper, and they are 
selling you something to put you to sleep, to wake you up, to 
quell the pain, etc. So our children become used to taking 
drugs. There is a case of a young woman who had been on meth 
probably 10 years, and it affected her heart. It affected her 
kidneys. It affects heart, kidneys. Let's see. And she's 
diabetic. She flatlined three different times. She went through 
the county hospital services in Sacramento. Her mother had been 
in as a patient for neurosurgery. She had a baby daughter, 18 
months old. This was a household heavily impacted by that one 
child who was 19 at the time that she fell ill.
    Now here is the question I have to ask: She went through 
four different hospitals. When she was doing better, they put 
her in a taxi and sent her home. Her mother couldn't take care 
of her, because she was recuperating from her surgery and she 
had not filed all the papers with the county, the mother for 
the daughter, 19.
    I got involved and had a meeting at the hospital and said, 
you've got to keep this patient here, she is critically ill.
    Well, they finally put her on a list for a transplant. Her 
heart has a hole in it from this continuous long-term use of 
meth. The problem is that she could not go into foster care 
because she was over 18 years old. The hospital did not want 
her to stay there because any time she goes out, she used meth 
again.
    And the social worker said there is no placement. We can 
get a senior placed or an infant placed, but there was no place 
for a person who was 18 and beyond.
    If we look at this whole problem from beginning to end, 
there are holes in it, because we don't know enough or we 
haven't really done the national studies, I think, as to what 
should be part of the treatment.
    Ms. Brown, what would you suggest we do with that young 
woman who is 20 now, and needs help, needs aid? She is at home 
with her mother, who is incapacitated. She has a daughter. She 
finally qualified for in-home support services, but she needs 
to be, at this current time, institutionalized because, what I 
can tell, is that the continued use over a long period of time 
of meth has affected her thought processes as well.
    Ms. Brown. And they, Congresswoman, are under assault as 
well. Hospitals are under assault. So it seems like it doesn't 
matter where you go in the health care system, it's not 
providing the kind of care and treatment that we are looking 
for. One of the most encouraging things I think that we have 
here is actually from Paul Pastor up in Tacoma, WA in Pierce 
County. And he said they had brought in a gentleman who was 
talking about their treatment program, and he said, you know, 
people kind of believe that methamphetamine is such a bad thing 
that there is no treatment that can ever cure or help or fix 
it.
    We have been doing an active study. We have active data. 
That data does tell that story. It says we can work with people 
in the community. There is great encouragement from the 
treatment of it, from the health care, all the people here.
    We are having a hard time accessing a system with less and 
less dollars, not only that we have available to us from our 
county revenues, but from our Federal revenues. Medicaid and 
foster care is under assault. Really, how can you expect to 
continue to provide for all of these people that we are 
currently seeing coming into the system needing care when we 
don't have the resources to do it?
    We are really trying, greatly, just to take care of those 
that are there now, that they have become the urgent care 
instead of just the urgent. So I absolutely agree with you, the 
system needs to look at the treatment and the health care end 
as well as the law enforcement as well as the cleanup. It has 
to be total.
    And just something I wanted to add that has not been 
mentioned at all today. We look at cities and we look at 
counties, and we look at how they're dealing with the problem. 
But we have States in the Northwest that they are predominately 
BLM land. And there is no one watching that store. And we find 
that the mobile society of meth producers in their vans will go 
anywhere that we are not.
    So they will go to the back lands, into Nevada, into Idaho, 
into Montana and into Wyoming. And it gets filtered right down 
to Rutherford County, NC, only now it's in a form that is 
salable.
    There needs to be a national approach, and that is one of 
the reasons we suggest we need the top priorities. We need the 
national leadership that you can provide.
    Ms. Watson. Let me just thank you so very much for those 
comments and go back to Dr. Young. As a Director of the 
National Center on Substance Abuse and Child Welfare, my 
question to you is do we have a plan? Are we thinking through 
how we can make our treatment programs, prevention programs 
national, comprehensive? And as I said, there was a hole in the 
treatment. After the hospital kicks this child out, there was 
nowhere that would take her. So they sent her home in a taxicab 
where she couldn't be cared for there.
    So as I said, there are holes along the way. And I agree 
with Ms. Brown. It has to be comprehensive. It has to be linked 
across the States. And people should not be able to go from 
State to State and find that they can get away with it in Utah 
and not in California, but in Utah they can.
    What is your thinking on that? And are we discussing it in 
a commission type structure?
    Ms. Young. I don't know about in terms of a commission type 
structure. I do know that our organization has worked with 
about eight States at present in the 2\1/2\ years that we have 
been operating to create comprehensive State plans to address 
the substance abuse issue in child welfare.
    Those States have looked comprehensively across treatment 
and intervention for children and the child welfare 
interventions to put plans in place to do just what you're 
talking about. I think there are communities that have been 
serious about this issue for quite some time. I cite Sacramento 
County in my written testimony, and you see the recovery rates 
that they're achieving regardless of the type of substance that 
is being used. And you see the faster reunifications that are 
happening by doing some very specific things, ensuring that 
comprehensive services are available very early in the case, 
even before the court has taken jurisdiction in a case in which 
children have been removed. They are offering services from day 
one. And they have defense counsel on board to say to parents, 
your best chance, your best hope is engagement in a recovery 
process in order to regain the custody of your children. They 
have been at this for some time. They're seeing positive 
results. There are places around the country that have put 
those kinds of plans in place.
    Is it widespread enough? No. Probably not. Are they ready 
to address the methamphetamine issue? I think that we need to 
be a bit ahead of the game. You certainly recognized the 
cocaine and the crack epidemic 15 years ago. I think this is 
our opportunity to ensure that comprehensive family based 
treatment and prevention efforts are in place for these 
families.
    Ms. Watson. Thank you so very much. I just want to say to 
the Chair, I know I am out of time. But maybe we can ask some 
of these good people to come together and give us the framework 
for maybe a piece of legislation, because this is a serious 
problem and it is killing our children. It is destroying our 
households, and it destroys our society. So maybe we can ask, 
through the Chair, for them to give us a report, what would 
they like to see us do in legislation.
    Thank you very much, Mr. Chairman.
    Mr. McHenry. Without objection, I think the committee would 
accept any further testimony you want to add or recommendations 
in particular that you would like to add to your testimony 
today. Without objection, that is ordered.
    At this time, I would like to recognize my colleague from 
North Carolina, my neighbor to the north and west, Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I am going to ask you 
all to answer, with one word, a question, each one of you. And 
then I want to ask a question.
    Mr. Burns said that the methamphetamine problem is not as 
great as cocaine and heroin. I just want you to go down the 
line and say, do you agree or disagree? I only want one word 
from each one of you. So start with Dr. Young.
    Ms. Young. Boy, that is so hard.
    Ms. Foxx. One word.
    Ms. Young. No. I would not agree. Wait. Excuse me. Would 
you rephrase? Because I want to make sure I am answering the 
right way. He said it was not as bad a problem? Depending on 
how you phrase it, I would say no. That is not correct.
    Ms. Brown. I agree with Ms. Young--Dr. Young.
    Ms. Baker. Do you agree or disagree with Mr. Burns?
    Ms. Brown. I disagree. I think it an epidemic of epidemic 
proportions.
    Mr. McHenry. One word. Mrs. Baker.
    Ms. Baker. Disagree.
    Mr. Byers. Disagree.
    Ms. Dunn. I would disagree.
    Chief Owens. Disagree.
    Mr. Shook. Disagree.
    Ms. Foxx. Thank you very much. So let the record show 
everybody disagreed.
    Sheriff Shook, could you tell us what, if any, Federal 
programs or State programs have been helpful to you and what 
you have been doing to fight the meth problem?
    Sheriff Shook. The formation of our meth task force through 
the State Bureau of Investigationis partnering with other 
county agencies, city agencies, the ATF, DEA and the U.S. 
Attorney's Office. We have also gotten a grant in our county, 
the endangered children's grant. That has helped us team with 
our mental health facilities, our Department of Social 
Services, and all the community groups combined have really 
made a difference because we have also gotten another grant 
that our Department of Mental Health is working with, Meth 
Affects Families, and they are doing a very good job working 
with the parents trying to reunite them with the children.
    I personally got to go to one of the counseling sessions 
with one of their clients. She was asked to bring someone that 
made an impact on her life with her meth problem, and she chose 
me to come. That was a very big honor for me.
    But just to see the communities pulling together and 
getting these Federal and State grants, that is what we have to 
have to fight this problem. And we all have to pull together, 
local, State and nationwide.
    Ms. Foxx. What you're saying is that there is an attempt at 
a comprehensive approach based on the collaboration that has 
gone on and that has been the message that we have been hearing 
from folks?
    Sheriff Shook. That is correct.
    Ms. Foxx. Thank you very much.
    Mr. McHenry. Thank you, Ms. Foxx. At this time, I just want 
to, on behalf of the whole Committee on Government Reform and 
the subcommittee here today, I would like to thank you so much 
for taking time out of your schedules. It is wonderful to 
actually have people in the front lines here giving real 
recommendations and real policy objectives in the needs of our 
local community. It is very refreshing. It is about this time 
in Washington on a Tuesday when most Members of Congress are 
ready to get back home and back to reality, and I appreciate 
you all injecting a dose of reality to our day here in 
Congress. And I sure appreciate your testimony. Thanks so much. 
You're dismissed. And at this time, this meeting is adjourned.
    [Whereupon, at 5:21 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4946.099

[GRAPHIC] [TIFF OMITTED] T4946.100

[GRAPHIC] [TIFF OMITTED] T4946.101

[GRAPHIC] [TIFF OMITTED] T4946.102

[GRAPHIC] [TIFF OMITTED] T4946.103

[GRAPHIC] [TIFF OMITTED] T4946.104

[GRAPHIC] [TIFF OMITTED] T4946.105

[GRAPHIC] [TIFF OMITTED] T4946.106

[GRAPHIC] [TIFF OMITTED] T4946.107

[GRAPHIC] [TIFF OMITTED] T4946.108

[GRAPHIC] [TIFF OMITTED] T4946.109

[GRAPHIC] [TIFF OMITTED] T4946.110

[GRAPHIC] [TIFF OMITTED] T4946.111

[GRAPHIC] [TIFF OMITTED] T4946.112

[GRAPHIC] [TIFF OMITTED] T4946.113

[GRAPHIC] [TIFF OMITTED] T4946.114

[GRAPHIC] [TIFF OMITTED] T4946.115

[GRAPHIC] [TIFF OMITTED] T4946.116

[GRAPHIC] [TIFF OMITTED] T4946.117

[GRAPHIC] [TIFF OMITTED] T4946.118

[GRAPHIC] [TIFF OMITTED] T4946.119

[GRAPHIC] [TIFF OMITTED] T4946.120

[GRAPHIC] [TIFF OMITTED] T4946.121

[GRAPHIC] [TIFF OMITTED] T4946.122

[GRAPHIC] [TIFF OMITTED] T4946.123

[GRAPHIC] [TIFF OMITTED] T4946.124

[GRAPHIC] [TIFF OMITTED] T4946.125

[GRAPHIC] [TIFF OMITTED] T4946.126

[GRAPHIC] [TIFF OMITTED] T4946.127

[GRAPHIC] [TIFF OMITTED] T4946.128

[GRAPHIC] [TIFF OMITTED] T4946.129

[GRAPHIC] [TIFF OMITTED] T4946.130

[GRAPHIC] [TIFF OMITTED] T4946.131

[GRAPHIC] [TIFF OMITTED] T4946.132

[GRAPHIC] [TIFF OMITTED] T4946.133

[GRAPHIC] [TIFF OMITTED] T4946.134

[GRAPHIC] [TIFF OMITTED] T4946.135

[GRAPHIC] [TIFF OMITTED] T4946.136

[GRAPHIC] [TIFF OMITTED] T4946.137

[GRAPHIC] [TIFF OMITTED] T4946.138

[GRAPHIC] [TIFF OMITTED] T4946.139

[GRAPHIC] [TIFF OMITTED] T4946.140

[GRAPHIC] [TIFF OMITTED] T4946.141

[GRAPHIC] [TIFF OMITTED] T4946.142

[GRAPHIC] [TIFF OMITTED] T4946.143

[GRAPHIC] [TIFF OMITTED] T4946.144

[GRAPHIC] [TIFF OMITTED] T4946.145

[GRAPHIC] [TIFF OMITTED] T4946.146

[GRAPHIC] [TIFF OMITTED] T4946.159

[GRAPHIC] [TIFF OMITTED] T4946.160

[GRAPHIC] [TIFF OMITTED] T4946.161

[GRAPHIC] [TIFF OMITTED] T4946.162

[GRAPHIC] [TIFF OMITTED] T4946.163

[GRAPHIC] [TIFF OMITTED] T4946.164

[GRAPHIC] [TIFF OMITTED] T4946.165

[GRAPHIC] [TIFF OMITTED] T4946.166

[GRAPHIC] [TIFF OMITTED] T4946.167

[GRAPHIC] [TIFF OMITTED] T4946.168

[GRAPHIC] [TIFF OMITTED] T4946.169

[GRAPHIC] [TIFF OMITTED] T4946.170

[GRAPHIC] [TIFF OMITTED] T4946.171

[GRAPHIC] [TIFF OMITTED] T4946.147

[GRAPHIC] [TIFF OMITTED] T4946.148

[GRAPHIC] [TIFF OMITTED] T4946.149

[GRAPHIC] [TIFF OMITTED] T4946.150

[GRAPHIC] [TIFF OMITTED] T4946.151

[GRAPHIC] [TIFF OMITTED] T4946.152

[GRAPHIC] [TIFF OMITTED] T4946.153

[GRAPHIC] [TIFF OMITTED] T4946.154

[GRAPHIC] [TIFF OMITTED] T4946.155

[GRAPHIC] [TIFF OMITTED] T4946.156

[GRAPHIC] [TIFF OMITTED] T4946.157

[GRAPHIC] [TIFF OMITTED] T4946.158

                                 <all>

</pre></body></html>
